<html>
<title> - DIVERSITY IN RECRUITING AND RETENTION:</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-53]

                      DIVERSITY IN RECRUITING AND

                   RETENTION: INCREASING DIVERSITY IN

           THE MILITARY--WHAT THE MILITARY SERVICES ARE DOING

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD

                           DECEMBER 10, 2019

                                     
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
41-929                    WASHINGTON : 2021   


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
                Craig Greene, Professional Staff Member
                          Dan Sennott, Counsel
                         Danielle Steitz, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     3
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Campos-Palma, Pam, Former U.S. Air Force Intelligence Analyst....    24
Garrison, Bishop, Former U.S. Army Officer.......................    27
Kelly, Lt Gen Brian T., USAF, Deputy Chief of Staff for Manpower, 
  Personnel and Services, United States Air Force................     7
Nowell, VADM John B., Jr., USN, Chief of Naval Personnel, United 
  States Navy....................................................     6
Rocco, LtGen Michael A., USMC, Deputy Commandant for Manpower and 
  Reserve Affairs, United States Marine Corps....................     9
Seamands, LTG Thomas C., USA, Deputy Chief of Staff, G-1, United 
  States Army....................................................     4
Williams, Kayla M., Former U.S. Army Linguist....................    23

                                APPENDIX

Prepared Statements:

    Campos-Palma, Pam............................................    94
    Garrison, Bishop.............................................   103
    Kelly, Lt Gen Brian T........................................    63
    Nowell, VADM John B., Jr.....................................    54
    Rocco, LtGen Michael A.......................................    73
    Seamands, LTG Thomas C.......................................    43
    Speier, Hon. Jackie..........................................    41
    Williams, Kayla M............................................    83

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Speier...................................................   115

Questions Submitted by Members Post Hearing:

    Mr. Brown....................................................   125
    Ms. Speier...................................................   119


 
              DIVERSITY IN RECRUITING AND RETENTION:

INCREASING DIVERSITY IN THE MILITARY--WHAT THE MILITARY SERVICES ARE 
                                 DOING

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                        Washington, DC, Tuesday, December 10, 2019.
    The subcommittee met, pursuant to call, at 2:34 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Good afternoon, everyone. We are going to call 
to order now the Military Personnel Subcommittee, and today we 
are going to talk about diversity in recruiting and retention. 
We are here to discuss what the services are doing to increase 
diversity, which includes representation of women and people of 
color.
    We are stronger when our military represents and connects 
to those it protects. One small ``warrior caste'' cannot bear 
the burden of service alone. Our democracy is stronger when we 
all understand the true cost of war waged on our behalf.
    Diversity is also an asset. Minorities and women have 
unique perspectives they bring to the fight and diverse teams 
are more innovative and effective. We also need to take 
advantage of all the talent at our disposal.
    Promoting diversity is also about justice and safety. Women 
and persons of color have always served in our military, even 
though for the majority of our history military policies and 
culture have been hostile to their presence.
    Those groups are now serving in increasing numbers and we 
need them more than ever. They deserve the opportunity to excel 
unencumbered by biases and barriers and free from hate crimes 
or sexual assaults that threaten their safety.
    We have included retention in this hearing because across 
every service, senior ranks are less diverse. Junior service 
members are more likely to stay in the military and rise when 
they can see and be monitored by leaders who look like them.
    Today's first panel shows what can happen when the services 
don't focus on diversity and retention. I don't doubt any of 
your qualifications or commitments, but our military personnel 
aren't all White men and our personnel chiefs shouldn't be 
either. I realize that this is not always the case, but it 
happens more often than not.
    There are approximately 1.3 million Active Duty members in 
the military; 83 percent are men and 16 percent are women; 17 
percent are Black or African American; 16 percent are Hispanic 
or Latino; 4.5 percent are Asian; and around 30,000 are 
noncitizens; 70 percent are White.
    Enlisted members are more diverse than officers, and the 
percentages have all increased over the past decade, but it is 
not enough.
    I am interested to hear what each service is doing to 
tackle these challenges. How are you using influencers such as 
parents, coaches, and educators to recruit diverse populations? 
What kind of public service campaigns have you launched? What 
has worked and who has collaborated with you?
    I also want to know how you are dealing with the ways 
belonging to an underrepresented group can negatively influence 
an individual's experience in the military and cause them to 
end their service. Research shows us that challenges like 
raising a family or dealing with inadequate healthcare 
providers are harder for women, who are still 
disproportionately expected to be primary caregivers. And 
complaints by women and minorities are still taken less 
seriously by doctors.
    Underexamined cultural norms, practices, and legacies also 
inhibit the success of women and people of color. Many notions 
about what constitutes a good Marine, soldier, or warrior 
simply reflect traits that happen to be held by predominant 
groups in the service, such as physical prowess, rather than 
those that actually correlate with success, such as empathetic 
leadership.
    In many cases, evaluating all service members by 
traditional expectations isn't equality or fairness. It is 
applying flawed criteria that reflect the skills of incumbent 
groups to a dynamic population with other strengths.
    I would like to hear how the services are grappling with 
these complex issues, not just by creating policies that give 
all service members equal opportunity to excel, but by 
confronting these cultural issues head on at every level.
    I also hope our second panel can help us understand, based 
on their expertise in this field, activism in service member 
and veteran communities, and experience on and departure from 
Active Duty, how these policies look in the field and what else 
the services should consider.
    Finally, I would like both panels to tell us what Congress 
can do. Whether it is nominations to the service academies or 
setting policy, we can affect diversity in the military, and we 
hope to partner with all of you in that effort.
    I would now like to turn it over to my ranking member, Mr. 
Kelly, for his opening comments.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 41.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly of Mississippi. Thank you, Chairwoman Speier. And 
I wish to welcome both of our panels to today's hearing on 
diversity in the military.
    The strength of our military is our people and the strength 
of people is our diversity. With rapidly evolving warfighting 
and technology, our national defense depends on the military 
services' ability to recruit and retain qualified individuals 
with a wide array of skills necessary to keep pace with our 
adversaries.
    Given that only 29 percent of 17- to 24-year-olds are 
eligible to serve in the military without a waiver, it is 
essential that services do everything they can to increase the 
recruiting pool.
    After reading through the witness statements, it is evident 
that the services have vastly improved their efforts to recruit 
from a diverse population. For example, the makeup of the 
services largely paces the racial and ethnic makeup of the 
United States population.
    In addition, the number of women in the military has 
steadily increased as well. The chairwoman and I recently had 
the privilege of meeting with female soldiers who were in 
combat arm MOSs [military occupational specialties] at Joint 
Base Lewis-McChord, and it is clear that the success of these 
groundbreaking troops is inspiring other young women who may 
not have otherwise thought about a military career at all.
    Despite the significant efforts made by the services, there 
are still areas for improvement. Specifically, the services 
must redouble their efforts to improve diversity among the 
officer corps. While women and minorities are represented in 
larger numbers than ever before, the services must look for new 
and innovative ways to improve recruiting and retention.
    With the recent opening of combat MOSs to women, I am very 
interested to hear from our witnesses today about how these 
additional opportunities for female service members may impact 
both recruiting in general, and in particular, officer 
recruiting.
    It is also important that the services continue to strive 
for a diverse force in other areas. In addition to race and 
ethnic diversity, the services must also consider geographic 
diversity and diversity of experiences.
    In an effort to meet the end strength goal, the services 
often focus their recruiting efforts on the areas of the 
country that produce the most recruits and the high schools 
that have had the most success in the past. While this makes 
sense from an efficiency standpoint, it often means that 
certain parts of the country, particularly rural and inner-city 
areas, are greatly underrepresented in the military.
    I understand that the Army has recently increased its 
efforts to recruit in areas that were historically overlooked. 
I would like to hear from all the services about their efforts 
to broaden the recruiting pool in this way.
    In addition, diversity of experience is crucial as the 
services continue to develop and employ new technology. Given 
increased demands in the fields of cyber and technology, the 
services may need to recruit individuals who are older and with 
more private sector experience.
    Recent reforms of DOPMA [Defense Officer Personnel 
Management Act] have given the services greater flexibility in 
this regard, and I look forward to hearing from the witnesses 
how they intend to use these authorities.
    Once again, I want to thank our witnesses for their many 
years of service and for being here today.
    And thank you. And I yield back.
    Ms. Speier. I thank the gentleman.
    I ask unanimous consent to allow Members not on the 
subcommittee to participate in today's hearing and be allowed 
to ask questions after all subcommittee members are been 
recognized.
    Mr. Kelly of Mississippi. Without objection.
    Ms. Speier. Without objection, so ordered.
    Now we welcome our first panel: Lieutenant General 
Seamands, Deputy Chief of Staff, U.S. Army; Vice Admiral John 
Nowell, U.S. Navy, Chief of Navy Personnel; Lieutenant General 
Brian Kelly, Deputy Chief of Staff for Manpower, U.S. Air 
Force; Lieutenant General Michael Rocco, U.S. Marine Corps.
    Let us ask that you summarize your testimony in 5 minutes 
or less. Your written comments will be made part of the record. 
And we look forward to hearing from you.
    Lieutenant General Seamands, you may begin.

   STATEMENT OF LTG THOMAS C. SEAMANDS, USA, DEPUTY CHIEF OF 
                 STAFF, G-1, UNITED STATES ARMY

    General Seamands. Madam Chairwoman Speier, Ranking Member 
Kelly, distinguished members of the committee, I thank you for 
the opportunity to appear before you on behalf of the women and 
men of the United States Army. I have submitted a statement for 
the record and would now would like to highlight some of the 
points from that.
    ``People first, winning matters.'' With these words our 
Chief of Staff set a clear azimuth for our Army and the way 
ahead. America's Army stands prepared today to deploy, fight, 
and win our Nation's wars as part of the joint force.
    People are the starting point for all that we do. Today the 
total Army force is the most diverse, the most talented, and 
the most lethal force in our Nation's history.
    Thank you for your continued work on NDAA [National Defense 
Authorization Act] and the support for end strength growth. The 
growth you have authorized will provide an even more diverse 
and lethal mix of soldiers who protect and defend our Nation.
    The Army continues to make full use of the new talent 
management authorities granted by Congress in the NDAA 2019. 
These authorities allow us and provide the flexibility to 
amplify diversity, give people in our Army the opportunity to 
be the best versions of themselves.
    We published the ``Army People Strategy'' in October and 
have focused on acquiring, developing, employing, and retaining 
our force, and it reaffirms that a diverse Army is one of our 
strategic outcomes.
    The Army's committed to equality of opportunity and 
providing all of our talented people with the opportunity of a 
fulfilling and rewarding professional career. The ``Army People 
Strategy'' main effort, acquiring talent, is defined as the 
ability to identify and recruit the diverse military and 
civilian talents needed to organize, train, and equip a force 
ready for prompt multi-domain operations, to include sustained 
combat operations.
    As we work to ensure a diverse workforce through the 
acquiring and retaining lines of effort, I would like to share 
some examples of our success.
    First, the Army has increased our Hispanic representation 
in all three components over the last 5 years from 12.5 percent 
to 14.6 percent of the total Army.
    Second, the Army has increased female representation in all 
three components over the last 5 years from 16.6 percent to 18 
percent of the total Army. We have seen the first female Ranger 
School graduate go on to complete her assignment as the first 
female infantry company commander and then go on to deploy with 
the Security Force Assistance Brigade in Afghanistan.
    We want our Army to look like our Nation and to reflect 
what is best of our citizens. As the country becomes more 
diverse, so has the Army. Today the makeup of the Army 
generally reflects the U.S. population.
    Given today's challenging recruiting environment, it is 
crucial that the Army leverage every tool available to 
understand what motivates and inspires and attracts qualified 
individuals to serve in the military.
    Our approach to diversity includes diversity of thought, 
talent, knowledge, skills, and experience, which adds to the 
richness of our Army. We recruit soldiers from every State and 
territory so that we truly represent our country.
    To ensure a diversified pool of recruits, the Army is 
producing marketing products in multiple languages to raise 
awareness in different audiences. We are also conducting 
recruiting and outreach activities focused on educating 
minority groups about the opportunities available in the Army.
    Once we acquire the personnel, we must also continue to 
retain the most talented soldiers, noncommissioned officers, 
and officers with the experience and skills necessary to meet 
our current and future needs.
    Our initiatives are developed with the benefits of 
diversity in mind. In fiscal year 2019, the total Army achieved 
its retention mission, with the Active Component retaining more 
than 88 percent of the eligible population. The Army is also on 
track to achieve the retention mission in fiscal year 2020. The 
force we retain has a rich diversity based on talent, 
performance, and potential.
    Madam Chairwoman Speier, Ranking Member Kelly, 
distinguished members of the committee, the Army appreciates 
your continued support from the committee over the many 
decades. I thank you for your generous and unwavering support 
of our soldiers, our civilian professionals, and their 
families, and your emphasis on diversity across our military.
    People first, winning matters.
    [The prepared statement of General Seamands can be found in 
the Appendix on page 43.]
    Ms. Speier. Thank you, General.
    Admiral Nowell.

  STATEMENT OF VADM JOHN B. NOWELL, JR., USN, CHIEF OF NAVAL 
                 PERSONNEL, UNITED STATES NAVY

    Admiral Nowell. Chairwoman Speier, Ranking Member Kelly, 
and distinguished subcommittee members, thank you for the 
opportunity to appear to discuss diversity and recruiting and 
retention.
    The Navy has a proud legacy of providing opportunities for 
people of diverse backgrounds. David Farragut and Horacio 
Rivero were our first admirals of Hispanic heritage and Samuel 
Gravely our first African-American flag officer. In 1980, Janie 
L. Mines became the first African-American female graduate of 
the U.S. Naval Academy, and in 1996, Lillian Fishburne the 
first African-American woman promoted to flag rank.
    In this century, Vice Admiral Carol Pottenger became the 
first woman to command an expeditionary strike group; Vice 
Admiral Nora Tyson the first to command a carrier strike group; 
and in 2014, Admiral Michelle Howard became the first female 
four-star admiral in history, the first African-American woman 
to hold the post of vice chief, and the first woman four-star 
operational commander.
    These are just a few pioneers who have entered the history 
books through distinguished Navy careers. By their 
achievements, they have demonstrated the strength of a diverse 
Navy. Yet, we have made far too little progress, far too 
slowly, and we are committed to changing that.
    The emerging challenges of great power competition demand 
that we remain one step ahead of our adversaries who are 
persistently challenging our traditional warfighting dominance 
through new and innovative methods.
    To do this, we are institutionalizing a culture of 
inclusion and diversity. We know that one of the key components 
to maintaining our edge is leveraging an inclusive culture to 
enhance our greatest warfighting advantage and our asymmetric 
asset, our people.
    We are empowering Navy leaders as force multipliers in 
promoting inclusion and diversity. We have increased 
participation of diverse talent in outreach events and 
marketing materials. We have highlighted the Navy's culture, 
benefits, and programs to showcase Navy as an employer of 
choice.
    We are investing in marketing strategies that highlight 
force diversity and leadership and development opportunities 
for people of all races, color, religions, sex, or national 
origin. Nineteen percent of our recruiting media budget focuses 
on multicultural and female prospects. All social media content 
reflects diversity within the Navy and the recruiting market.
    We offer NROTC [Naval Reserve Officers Training Corps] 
scholarships to minority-serving institutions and preparatory 
programs, and over one-quarter of this year's U.S. Naval 
Academy accessions were female and minorities.
    We are implementing strategic coaching and mentoring 
programs across the career continuum, and through standardized 
inclusion and diversity, core competencies and skills, we have 
enhanced our ability to develop and retain sailors.
    Thank you for your support of these efforts and for your 
unwavering commitment to the men and women of the United States 
Navy and their families. I look forward to your questions.
    [The prepared statement of Admiral Nowell can be found in 
the Appendix on page 54.]
    Ms. Speier. Thank you, Admiral.
    General Kelly.

STATEMENT OF LT GEN BRIAN T. KELLY, USAF, DEPUTY CHIEF OF STAFF 
 FOR MANPOWER, PERSONNEL AND SERVICES, UNITED STATES AIR FORCE

    General Kelly. Chairwoman Speier, Ranking Member Kelly, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today to discuss your Air 
Force's ongoing diversity and inclusion efforts in recruiting 
and retention.
    We understand we must leverage and optimize the diverse 
sets of ideas, experiences, and perspectives necessary for 
generating solutions across our spectrum of challenges, and the 
Air Force considers diversity a warfighting imperative.
    As such, the Air Force set a goal for our force to mirror 
and be representative of the population of Americans eligible 
to serve by race, gender, and ethnicity.
    To track progress toward that goal, we have implemented a 
monthly Diversity Inclusion Council chaired by the Chief of 
Staff of the United States Air Force and consisting of key 
members of the staff and field commanders responsible for 
recruiting, development, and retention. The council also 
includes mentors who represent diverse perspectives and who 
come from both our current and retired population of airmen.
    Within our aligned goal, the current population of 
Americans eligible to serve is 57 percent women, while our Air 
Force consists of 22 percent women. The current population of 
African Americans eligible to serve is 7 percent and our Air 
Force has 15 percent, with 6 percent in the officer corps. The 
current population of Americans with Hispanic ethnicity is 9.5 
percent, while our Air Force is comprised of 13 percent, with 7 
percent in the officer corps.
    While we have made strides in improving our diversity with 
a 4 percent increase in female airmen and a 5 percent increase 
in racial and ethnically diverse airmen over the last 10 years, 
the demographics indicate we still have a long way to go to 
satisfy and maintain our warfighting imperative.
    Recognizing these facts, our Diversity and Inclusion 
Council focuses on accelerating the pace of our gains and 
improvements over time. Recognizing that operational career 
fields, particularly rated career fields with aviation, as well 
cyber and space, tend to advance to higher ranks at greater 
proportions, we have embarked on improving representation 
within these communities.
    The Air Force created a Rated Diversity Improvement 
Strategy to engage, collaborate, and innovate across the four 
primary lines of effort: pre-accessions, accessions, initial 
training, and career.
    This plan features 20 unique initiatives and projects with 
funding in fiscal year 2019 totaling over $10 million. One of 
our projects focuses on exploring underrepresented groups to 
operational career fields, as many youth do not know that they 
can be exposed to these kind of areas.
    We also know that Air Force Junior ROTC [Reserve Officers' 
Training Corps] cadets are 10 times more likely to join Air 
Force ROTC and 25 times more likely to enter USAFA [United 
States Air Force Academy] compared to non-Air Force Junior ROTC 
students.
    In addition, the current ROTC students are 60 percent 
minority and 40 percent female, meaning we have a target 
population. In 2019, 31 percent minority and 29 percent female 
joined what we now call the Flight Academy. This provides a 
standup in 2018 that allows us to target and expose these 
underrepresented groups with 28 ROTC scholarships, 122 new 
pilots, and 12 academy appointments from the small cohort.
    While these numbers are small, we believe making an 
investment in today's youth will provide significant over time 
improvement in diversity in Hispanic and underrepresented 
groups.
    We have also focused our female applicant pool within the 
accession sources and have targeted several venues, including 
Women in Aviation, Girls in Aviation, and others with similar 
outreach on diverse sites.
    Although the Air Force recognizes recruiting as the 
starting point of the ecosystem, retention plays an equally 
important role in building a more diverse force. While our 
overall diverse population and recruiting numbers have 
improved, we have not been as successful in retaining women and 
diverse airmen in longer careers.
    The retention rate for our female officers in the years 6 
to 10 is 50 percent of the retention rate for their male 
counterparts. Likewise, the population of female officers at 
the O-6 and general officer ranks is 15 percent and 8.3 
percent, respectively, compared to 25 percent at the company 
grade officer ranks. The population of diverse officers at the 
O-6 and general officer ranks is similar, with 14 percent and 
6.6 percent, compared to 29 percent at the company grade 
officer ranks.
    The focus on retention for us has created several barrier 
analysis working groups to identify barriers to retention and 
barriers to advancement. The results of these working groups 
have allowed us to make policy changes that assist with 
limiting unnecessary challenges and providing development 
opportunities that enhance family life and career balance and 
do not put female and minority groups sacrificing one over the 
other.
    The Air Force has implemented several of these and 
continues to do so, including exempting female airmen from 
deployment or TDY [temporary duty assignment] for 12 months 
after giving birth unless they volunteer, and creating and 
publishing a requirement for access to lactation facilities, 
such as rooms or pods.
    The Air Force continues the Career Intermission Program and 
looks to expand that with your help. Just this past summer, the 
Air Force held a fit program where we looked at new uniform 
items, flight suits, one-piece coveralls, and aviation bladders 
as a way to help us make sure that we are being responsive to 
our female airmen.
    In conclusion, the Air Force continues to fully 
operationalize diversity and inclusion to leverage the Nation's 
greatest asset, its remarkable diverse citizenry, but we know 
we have a lot more to go. We are committed to leveraging 
diversity to our advantage and look forward to partnering with 
the Congress in our endeavors to protect and defend our great 
Nation.
    I thank you for your continued support of your Air Force, 
those in uniform, our civilian professionals, and the families 
who have supported them, and I look forward to your questions.
    [The prepared statement of General Kelly can be found in 
the Appendix on page 63.]
    Ms. Speier. Thank you, General.
    General Rocco.

 STATEMENT OF LTGEN MICHAEL A. ROCCO, USMC, DEPUTY COMMANDANT 
  FOR MANPOWER AND RESERVE AFFAIRS, UNITED STATES MARINE CORPS

    General Rocco. Chairwoman Speier, Ranking Member Kelly, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss recruiting, 
retention, and diversity in the Marine Corps.
    Since our founding in 1775, Marines have answered our 
Nation's call faithfully, serving the American people and 
maintaining a high standard of military excellence. Then and 
now, everything starts and ends with the individual Marine. 
Your Marines are recruited, trained, educated, and retained to 
win our Nation's battles. They are smart, resilient, fit, and 
disciplined.
    Recruiting high-quality women and men while retaining the 
best and brightest continues to make the Corps stronger. 
Diversity remains critical to the Marine Corps. It is our 
responsibility to ensure the Marine Corps is comprised of the 
best and brightest from every segment of our diverse society.
    Diversity must be included in meaningful ways in order to 
take advantage of the wide array of aptitudes and perspectives 
necessary to maintain our current and future warfighting 
excellence. We are committed to capitalizing on the knowledge, 
skills, abilities, performance, and potential of every Marine.
    Diversity in the Marine Corps is increasing. In 2010, 30 
percent of the Marines identified as minority. Today that 
number is over 40 percent, and we expect these numbers to 
continue to rise as 44 percent of all accessions in fiscal year 
2019 identify as minorities.
    In 2010, 6.7 percent of the Marine Corps was female. It is 
now almost 9 percent. These numbers should also continue to 
rise as females are now over 10 percent of all accessions. Last 
year, 12.7 percent of officer accessions were females, 
representing the highest percentage of female officer 
accessions in the Marine Corps since the establishment of the 
All-Volunteer Force.
    Females represented in previously closed MOSs are also on 
the rise. Six months ago, I testified before you, reporting 
that 507 females were in previously restricted units. That 
number is now 650.
    Females who have earned these MOSs have also increased. 
When I last testified, there were 203 females serving in 
previously closed MOSs. Today, that number is 257. And we now 
have our first female F-35 pilot and first female 
Reconnaissance Marine.
    We have achieved our accession success by increasing our 
female inclusive marketing and by focusing direct mail and 
advertising to generate awareness and highlight opportunities 
in the Marine Corps. We are also partnered with a host of 
diverse organizations across the Nation. We have recruiters 
assigned to every square mile, every Zip Code, and every public 
school in our Nation. Our goal is to reach the youth and 
influencers, from the most rural of small towns to the largest 
of cities.
    Our recruiters work extremely hard. Their task is 
challenging. Only 30 percent of age-qualified youth are 
qualified for the military and only 10 percent are interested 
in serving. And less than 8 percent of the females are 
interested.
    On the retention side, we are leveraging technology to help 
understand and someday predict why individuals decide to join 
the Marine Corps, as well as remain a Marine. These efforts 
include improving current data collection and management, 
longitudinal accession, retention, and exit surveys, along with 
cognitive and noncognitive testing, with the objective of 
identifying and fitting the right person with the right skill 
into the right billet.
    Even with our success there is still a lot of work to be 
done. While females and Marines who identify as minorities 
promote at nearly the same rate and sometimes higher than other 
Marines, they remain underrepresented at higher officer ranks, 
especially at the general officer level. However, we believe 
that our efforts today will pay dividends as our junior 
officers populations are now more diverse. Today's junior 
officers will be tomorrow's senior leaders.
    Inextricably intertwined with recruiting, retention, and 
diversity is culture. We need to make sure the Marine Corps 
culture is one of respect, dignity, and inclusion for all.
    We can do better. This is evident from the research 
surveys, townhalls, and just talking with Marines. A recent 
study on Marine Corps culture, which we commissioned, 
illustrated where we have fallen short.
    But we are working tirelessly to self-assess and improve. 
We are updating our fitness report system, which encourages 
reporting seniors to address diversity. Specifically, and I 
quote the order, summarize the Marine's ability to manage 
commander's intent and execute higher expressed goals while 
fostering a positive command climate with an emphasis on 
readiness, mission, diversity, and accountability.
    Command climate assessments have been reordered and will 
now be taken to the command prior to the command turnover. 
Reporting seniors now have the results prior to that final 
fitness report.
    We have published a comprehensive prohibited activities and 
conduct order. We have established a Talent Management 
Oversight Directorate led by the Assistant Commandant, and I am 
on the executive council.
    We have started an Exit and Milestone Longitudinal Survey 
Program to assess why Marines join and why do they choose to 
leave. Every Marine now takes a Tailored Adaptive Personality 
Assessment System, or TAPAS, test, and we have included 
unconscious bias training in all our schools.
    The topic is on the minds of all Marines, especially senior 
leadership, as it should be. It is, more than anything, a 
leadership issue. Marine leaders must not just talk about 
changing culture, they must be an example of how to treat your 
fellow Marines and all individuals with dignity, respect, 
empathy, and compassion. Be servant leaders.
    I personally consider this my ultimate responsibility. I am 
proud to represent the men and women of character, the few, the 
proud. I look forward to answering your questions.
    Thank you.
    [The prepared statement of General Rocco can be found in 
the Appendix on page 73.]
    Ms. Speier. Thank you, General.
    All right. I am going to start with you, General Rocco.
    Following the initial Marines United scandal, the Corps 
commissioned a report on Marine culture, especially as it 
relates to gender equality. That report is dated March 2018, 
but was only quietly published publicly in September of 2019.
    Have you read the report?
    General Rocco. I have.
    Ms. Speier. Thank you. I saw the Commandant commented on 
the report over the weekend, and I appreciated his statements 
against sexist attitudes in the Marines.
    Has he read the report as well?
    General Rocco. I believe--I know he has been briefed on it. 
I can't say if he has actually read it.
    Ms. Speier. So if he hasn't, I would urge you to suggest to 
him that he read.
    The report draws a distinction between parity, where 
everyone gets the same treatment, and equity, where different 
experiences and needs are accounted for in promoting diversity, 
saying that Marines interviewed, quote, ``conflated equality 
with sameness when determining what is fair.''
    Do you agree with the report's conclusion that the Marine 
Corps' messaging should promote a notion of equality that 
accounts for different experiences and contexts rather than one 
that seeks to treat everyone the same?
    General Rocco. That is an important question, Chairwoman. 
Thank you for asking that.
    I would start with we are a standard-based organization, so 
there is a standard to be held. But I would also take into 
account, because of the diversity and the importance of 
experiences and what that brings to the table, that we need to 
also temper that with the experience that that individual 
Marine has come to the table with.
    So, yes, I would agree with you, we maintain a standard. 
But the reason why it is important, diversity is important, 
because different people look at different problem sets and 
come to a different conclusion. And I think that is very 
healthy for the institution to bring on board and to appreciate 
and to respect.
    Ms. Speier. So this year the Marines' birthday message from 
the Commandant lasted 8 minutes, but only contained footage of 
women for 6 seconds or 1.25 percent of the run time. Do you 
think that is a problem?
    General Rocco. I thought the message was well received. As 
far as only representation, I did not parse the video and look 
at female Marines for 6 seconds or tall Marines for this long 
or minority Marines for that long.
    So I think it probably--I know it is being looked at from 
the public affairs perspective as far as the message and what 
that unintended messaging was. And I think we are doing an 
internal look at we possibly could have got that a little bit 
better.
    Ms. Speier. I would agree, you could have gotten that a 
little bit better, because in some respects it reinforces the 
notion that women aren't really welcomed in the Marines.
    General Berger told Military.com that including more women 
in the video would have been an artificial elevation and treat 
people by two different standards, ``and we don't do that in 
the Marine Corps.''
    I hope that that, upon reflection, is not what he really 
intended to mean, because we have really got to change the 
culture. And I think you were nodding in appreciation of the 
fact. So I will leave that.
    Let me now move on to General Seamands.
    You were quoted in your statement: We want the Army to look 
like our Nation. In 2040, our Nation will be majority minority. 
So I think as you look at your responsibilities, that is a huge 
shift in the population of our military if we are going to 
continue to reflect the Nation that is the United States.
    Do you have any comments on that?
    General Seamands. Yes, ma'am. We are looking at the same 
demographics in the future makeup of our country. We are doing 
a number of things to try and make the Army get on the--
continue the Army on the glide path to look like our Nation.
    For example, we have 22 focus cities where our recruiters 
are out there in areas we perhaps walked away from during the 
drawdown and other times. So urban areas, places like Atlanta, 
Seattle, where we didn't have much of a presence, we have 
reinvested in those areas which represent a rich diversity of 
our country.
    We have programs like we are taking a look at Houston and 
Los Angeles to see what kind of things we can do to both 
encourage college-bound applicants to go into ROTC and join the 
Army, as well as applicants who want to come and serve the 
Army.
    How do you tap into that market? How do you communicate 
with them? How do you resonate and explain to them that 150 
specialties, everything from a doctor to a lawyer to an 
infantryman, is an available outcome.
    Our marketing, ``What is Your Warrior?'' program, that is 
out there, actually talks about the diversity of the Army in 
terms of who is in the commercials, as well as the various 
opportunities that are out there.
    Ms. Speier. All right. Thank you.
    Ranking Member Kelly.
    Mr. Kelly of Mississippi. One of the things that I know is 
the military is a family business. And so when we start on a 
recruiting pool, a lot of times you start with that same 
business. My brother retired as a command sergeant major, my 
father retired as a first sergeant, that is me personally. But 
most of them it is a family business, it continues.
    So what are we doing in each of the services to expand 
beyond those people who have traditionally served? Because they 
want to be in, they just don't know they want to be in. We as 
parents teach our kids that. What are you doing to reach this 
other group?
    General Seamands. Representative Kelly, thank you very 
much.
    I will say I am guilty as charged. I have a picture of my 
daughter, she just got out of Joint Readiness Training Center 
after about 30 days of intense training. I told her I was going 
to bring her to Congress today.
    But I am very proud of her. Your point is well taken. It is 
a family business. My dad was in the Army, my brother was in 
the Army. And we do have to get outside the gates and into the 
local communities and explain the value proposition, the 
purpose you get when you join the Army.
    And so as we bring people in from across the Army a couple 
of things we have done. We have sent some recruiters back to 
the places where they were. We have a program called ``Meet 
Your Army'' where we send Army leaders out to areas where there 
is not a big Army presence to meet with school superintendents 
and have discussions about why their citizens should be 
interested in the Army, what the opportunities are. We are 
engaging guidance counselors, we are engaging teachers, 
influencers across the board to help tell the story of the Army 
and to expand our pool.
    Mr. Kelly of Mississippi. I am going to go on to the next 
one.
    You know pre-all-volunteer military folks got a lot of 
options. They got, you can go to Vietnam or you can go to jail. 
You can go in the Army or you can go to jail.
    That wasn't all bad, because when you look back, as a 
former prosecutor, the people that I helped in life were not 
necessarily the ones I put in jail, they were the ones that I 
gave an option and a path to keep from going to jail.
    So in the military what are we doing to reach out to those 
same kids who wound up retiring as command sergeant majors who 
had no path but jail on their horizon when they got jail or 
Vietnam? What are we doing to reach out to those kids to give 
them other options which give them a chance for a very 
beneficial career to them?
    And let's go with Lieutenant General Rocco, because most of 
those guys could be definitely Marines.
    General Rocco. Thank you. Thank you, Ranking Member Kelly.
    So the Junior ROTC programs I think are very effective. I 
think those are probably, short of the ROTC programs in the 
colleges that are very competitive, I think that is a great 
introduction to try to reach out to some of those folks and 
take some of that. And many of those leaders for us are senior 
enlisted that have retired that I say walk the walk and talk 
the talk. So they really can connect with them.
    They generally go back to their home towns, so be it from--
and as I mentioned in my opening comments, we have 
representation throughout both rural America, large cities, 
inner cities. So that ability to reach out to those families.
    I have got a list here of other things that we do. Central 
Intercollegiate Athletic Association, the National Society of 
Black Engineers, the Society of Hispanic Professional 
Engineers, the Society of Asian Scientists and Engineers. We 
send representation and folks to all these different venues 
that traditionally have not had military.
    I myself do not come from a military family. I am the first 
in my family to volunteer into the military.
    Mr. Kelly of Mississippi. And this is for you, too, because 
we are limited on time. But I am reading a book ``The Immortal 
Irishman'' now, and General Meagher. It was horrible to be 
Irish in America pre-Civil War, but he got all those Sons of 
Erin and took them and made them warriors on the battlefield 
and made it a proud thing to be an Irishman who was in the 
military. But at that time it was like really bad to be in the 
military.
    So recruiting-wise--so he was a great recruiter, right? So 
you see a great Irishman, one of the seven, and you want to be 
like him. So what are you guys doing to make sure that our 
recruiters reflect who our people want to be? What are we doing 
to have female recruiters and African-American and Hispanic 
recruiters to go get those kids that we want to increase 
diversity?
    And that is for the Lieutenant General and Vice Admiral 
Nowell.
    General Kelly. Thanks, Ranking Member.
    I think, first, you are right, we have got to have 
recruiting representation that represents all those pools that 
we want to be. You have to see it to want to be it, right, and 
you are out there.
    So we use not only our increase in recruiters, we have 
added about 189 recruiters, but we use what we call the Gold 
Bar program. So new airmen, new lieutenants who can represent, 
we take them and we put them back in the communities from which 
they came. They get to see those folks, they get to go to the 
influencers and talk to them.
    We recently had a fly-in event, we call it a fly-in event, 
in the Dallas-Fort Worth area where we flew in two female 
aviator generals, a number of female captains, female 
lieutenants into those communities, Hispanic female aviator 
into those communities, and had them go out and connect with 
the local ROTCs and Junior ROTCs so they can see themselves and 
talk and influence those folks who are out there. So those are 
the kind of things that we doing in addition to what General 
Rocco said.
    Admiral Nowell. Sir, we are doing some things very similar 
to what General Kelly said. I would also mention that we have 
shifted to a digital marketing and advertising, we are getting 
into the space that those young people are in, and then we are 
showing them--one of things that we have is ``Faces of the 
Fleet.'' These are sailors that are telling their story, and we 
built diversity into that.
    So for instance, Lieutenant Aric McGee in ``The Ascender,'' 
he is the grandson of one of the Tuskegee Airmen, and he tells 
his story. He is an MH-60R Romeo helicopter pilot. That has 
gotten 1.5 million views and that directly translates into 
leads that we go out--and a lot of these are young people that 
say: Wow, he looks like me, I think I could do that.
    Mr. Kelly of Mississippi. I yield back.
    Ms. Speier. Thank you.
    At some point in the near future could you make available 
to the committee the gender and ethnicity of your recruiters so 
we can review that?
    All right. Congresswoman Davis.
    Mrs. Davis. Thank you. Thank you, Madam Chair. Thank you to 
all of you in your dedication to service.
    I know as I looked at some of the materials here there have 
been a lot of studies looking at recruiting, retention, how we 
align the needs with the community. And I am just wondering, 
out of all of that, what has been the hardest thing to actually 
do within those areas of recommendations?
    General Kelly. I will start, Congresswoman.
    I think the hardest thing for us is to connect with those 
communities where you don't have the legacy of military service 
and connect with people and get them interested in and 
propensed for military service. So it is this mission of 
inspiring and showing opportunity and connecting with those 
folks that there are these opportunities for them to do other 
than jail or Vietnam.
    So I think that is the hard part for us, is how do you 
inspire a group of Americans to want to join and not just be 
from the legacy of the previous family parts. And so we are 
working hard at that and looking at role models and things. But 
I think that is where we find the toughest challenges in places 
for us.
    General Rocco. I would like to just jump on that real 
quick, ma'am.
    As I mentioned in my opening remarks--what was easy? The 
easiest part was we have listed readiness, mission, diversity, 
and accountability as a benchmark for a commander to be 
reported on. So diversity is in the same category as readiness, 
which for the Marine Corps is absolutely groundbreaking.
    And what I found in the CAOCL [Center for Advanced 
Operational Culture Learning] study, which is probably the most 
interesting, and now all the senior leaders that go out and 
discuss, and we talk at all the different classes--I am sorry, 
the academies and the schools in the commanders course--and it 
came out of the CAOCL study, was how do you teach a Marine 
empathy? And that is a great--and that was kind of the bell 
that kind of rung for me. And that is something----
    Mrs. Davis. Have we achieved that?
    General Rocco. Well, we do and we discuss. And we discuss 
and we talk about it from personal experiences. We were just 
talking about, I missed my father's funeral because I was 
deployed. We have a Marine division commander who talks about a 
special needs child that he has that he has dealt with through 
his career.
    And when you start talking about--so the same families and 
the same folks that are in that situation, that similar 
situation looking at a Marine general or a senior leader going, 
okay, they somehow got through, that is important.
    And when we are looking at it from a commander and writing 
reports on it, I think that is how we teach it.
    Mrs. Davis. Because I think part of it is what are people--
what are we finding that the young people are afraid of, what 
scares them from even considering it? And how do you make sure 
that the influencers are available to talk to? Not just that, 
but are sort of on the ground floor to create some of these 
inspirational videos, if you will. I don't know how much of 
that is being done by the very people that you are trying to 
reach.
    Admiral Nowell. Ma'am, I will just jump on that as well, 
because one of the things that we are finding is it is not just 
about getting our ``Faces of the Fleet'' or we have rating 
videos where they get to see folks that look like themselves. 
It is them then taking those and then sending that back out, 
and so getting that additional bounce. It is about reaching 
them.
    And I think General Rocco and General Kelly had it right, 
it is about culture and how do we make sure--so not just 
bringing them in, how do we then keep that inclusive and 
diverse force? And so we are spending a lot of time working at 
all levels of leadership to get that into the education 
program.
    Mrs. Davis. I wanted to ask you as well about junior 
officers, because is it correct to say that if we actually 
worked as hard as possible and made sure there were no barriers 
to people who could rise and ascend within your services, and 
you are all kind of competing against one another in many ways, 
that would make a huge difference.
    And they are there, they are in our services. And yet, in 
every report there are countless barriers that are noted.
    So what is that? Where does that leadership come from to be 
sure that we have those opportunities and that we are helping 
and assisting them to be able to take the measures that are 
needed over time? It doesn't happen overnight. You know that.
    General Kelly. Congressman, you hit on it. There are all 
kinds of challenges. And I mentioned the barrier analysis 
working groups that we do, and we identify a variety of issues 
and things that come up. We have had four female airmen rise to 
the rank of four-star, one to be the first female combatant 
commander, Lieutenant General Lori Robinson.
    But for every one of those in the cohort, if we don't 
retain the ones we have, the 25, 26 percent that we have at O-
1, by the time they get to O-6, O-7, O-8 the cohort in the pool 
is so small. So we are working really hard on identifying those 
barriers and trying to knock down those barriers.
    And the barriers are coming from them. We are asking them: 
What are your issues? Where are you at? The analysis groups, 
the barrier analysis groups, are made up of the ground floor, 
grassroots airmen that are telling us what is going on.
    Ms. Speier. So what are they telling you in terms of----
    General Kelly. It is a variety of issues. So you hit on 
during your opening comments, Chairwoman, about the challenge 
between trying to do career and family versus service. And we 
have tried to do a lot of things and continue to do a lot of 
things to remove that. Don't make it an either-or. How do we 
balance both and what do we put in place to do both?
    Simple things like female equipment, for helmets and 
bladder control and flight suits that weren't there that just 
become unnecessary and annoyances, that we are just trying to 
remove those annoyances so that we don't have these issues 
where somebody is going to feel like, ``Why do I want to stay 
if I am not as appreciated?'' the cultural things that General 
Rocco talked about.
    Ms. Speier. I was just recently told that--and I don't know 
which service it is--but that the female uniforms are more 
expensive than the male uniforms.
    So would you take that back and report back to us on what 
the costs are? Because that is coming out of their pockets 
after the initial uniform, is it not?
    [The information referred to can be found in the Appendix 
beginning on page 115.]
    Ms. Speier. All right. Thank you.
    Mr. Cisneros.
    Mr. Cisneros. Thank you, Madam Chairwoman. And thank you 
all for being here today, gentlemen.
    General Rocco, I am going to address this question towards 
you, but it is really open to anybody who can answer it.
    So I have a friend who is a Marine who enlisted, did ECP 
[Enlisted Commissioning Program], which the Marines help pay 
for. Later on was sent to school by the Marines to get a 
master's degree. The Marine was promoted to major and he hit 
his 20 years.
    Now, the Marines invested a lot of money in him, in 
educating him and helping him out. But at the 20-year point he 
decided to retire. And we can't prevent individuals from 
retiring at 20 years.
    But what are we doing when we have these individuals that 
we are investing a lot of money in and really grooming them, or 
hopefully be grooming them, how are we convincing them to stay 
in the Marine Corps or any service when we have invested this 
money in them--and my friend, too, he is Latino, I should say 
that as well--especially when we see that there is a lack of 
diversity up in the senior ranks.
    General Rocco. Thank you for the question.
    Not knowing the individual case, so what we have done is we 
have started the Exit and Milestone Longitudinal Accession 
Survey, and what that is designed to do is basically 
categorize--and we are using artificial intelligence to capture 
all this data--as to why the person joined the Marine Corps in 
the first place.
    Then at different career points they take the survey again 
to see what they like or don't like about the Marine Corps. At 
the 4-year mark for enlisted. At the officers it is the career 
designation point. And then, of course, it is when they get 
promoted to major. And then it is when they leave.
    At this point right now, we don't have enough data to be 
conclusive on it, but he is absolutely somebody that I would 
love to talk to, because we have invested a lot.
    In my job as Manpower and Reserve Affairs, we have a lot of 
graduate, Naval Postgraduate officers that are pulled out of 
their MOSs and they are sent to Monterey. They receive a 
graduate degree in a technical field and then they become data 
analysis. And they are very important on the work that we do.
    They actually promote at a higher rate than if you did not 
go to Naval Postgraduate School. And I have it broken down by 
ethnicity and broken down by gender. But the fact of the matter 
is that is someone that we would have wanted to hold on to.
    I can't speak to why he would have left, and the reasons 
are varied. But that is someone, as you say, we have invested a 
lot of money in.
    And I think, and not really as a warning, but our new 
system, our BRS [Blended Retirement System] system, I think is 
updated. It is a great retirement system. I fully support it. 
But we have now moved that 20-year mark, which is retirement, 
and we have moved that to about 12 years where the individual 
member can leave the military with an awful lot of money.
    And that is something that we are looking at and we are 
putting in a lot of brainpower into trying to figure out what 
exactly we need to do to now, instead of capturing that 20-
year-old major--or 20-year Marine--we now have to do that at 12 
years, which is a disadvantage because they are much more 
marketable at 12 years of service vice a little bit older at 20 
years.
    Mr. Cisneros. And, Vice Admiral Nowell, I will address this 
question to you.
    So I did Navy ROTC, and I was a political science major, 
but I recently went back and I looked at the requirements and I 
would not have been able to get that ROTC scholarship. It is 
pretty much all STEM [science, technology, engineering, and 
math] careers or STEM majors, is what they are looking for 
today.
    And when you look at a lot of the people that are studying 
STEM in college, it is not women, it is not people of color. 
And I am sure a lot of you really kind of have that same 
emphasis on STEM in the officers that you are looking for.
    Really are there any programs that any of the services are 
running to reach down to maybe into the middle schools, the 
high schools, to partner with them, to kind of get people of 
color, to get women involved in STEM, and really help groom 
them into becoming those future military officers?
    Admiral Nowell. Sir, thank you for those questions. And you 
are exactly right, we do think that we have got to get to that 
level. We do that with some of the influencers that you 
mentioned earlier as well as the JROTC units.
    When you look at that diversity, I think the statistic is 
something like 42 percent female and 62 percent ethnically and 
racially diverse.
    So one of the things that we have started to go ahead and 
try and give some folks a leg up as they compete for those ROTC 
scholarships is something we call the NROTC Preparatory 
Program. It is patterned after the Naval Academy Preparatory 
School where we will give folks a 1-year tuition-free stay 
there at NAPS before they go to the Naval Academy, but 
institutions are paying for room, board, and tuition for these 
students. And if they get through, then we will guarantee them 
a 4-year scholarship.
    We have 67 in that program this year, with a goal of 200 
over the next few years. And these are colleges and 
universities partnering with us and looking at the talent at 
that lower level that you mentioned to then try and make sure 
that we have a more diverse population there at NROTC, as well 
as the Naval Academy and OCS [Officer Candidate School].
    Mr. Cisneros. Thank you. I yield back my time.
    Ms. Speier. Thank you.
    Are the other services doing that as well?
    General Seamands. Chairwoman Speier, within the Army the 
United States Military Academy has programs that go out to STEM 
programs to seventh and eighth graders both at West Point and a 
traveling show to make awareness about the opportunities within 
the Army and to encourage them to consider a service.
    Ms. Speier. Air Force?
    General Kelly. Yes, Chairwoman, we are doing similar kind 
of programs, including a drone UAS [unmanned aircraft systems] 
kind of program where we go out to middle schools and high 
schools to get them interested in that. We participate in 
Hispanic STEM Week, a variety of ways to try and get down to 
those organizations and try to influence at that level, knowing 
that you have to start early.
    Ms. Speier. General Rocco.
    General Rocco. Well, not surprisingly, the Marine Corps, 
while STEM is important, I mentioned in my opening remarks 
about TAPAS [Tailored Adaptive Personality Assessment System]. 
And what we have really determined is more important than 
education or what that undergraduate degree--or what the 
education is, it is the grit. It is the grit and determination 
to perform in the military.
    So that is why we are having everybody take the TAPAS test, 
which is basically a grit test and cognitive--I am sorry, 
noncognitive test, that will you succeed in the demanding 
environment of the military.
    Ms. Speier. All right.
    Congresswoman Escobar.
    Ms. Escobar. Thank you, Chairwoman. And thank you so much, 
gentlemen, for your service and for your testimony today.
    Back in my home district, as I am sure my colleagues can 
understand, we have lots of incredible young people who are 
asking for our support as they apply to the service academies. 
And it is one of the most wonderful aspects of the job to see 
all of these hopeful faces, these young people who are excited 
about their future and have so much to offer our country.
    And in my community, the district I represent, El Paso, 
Texas, we are a minority-majority community, home to Fort 
Bliss, and 85 percent of my constituency is Latino, a quarter 
are immigrants. And to see so many young people of color and so 
many young women envision their career as a service member is 
exciting. But the numbers in terms of their ability to break 
through and to get into leadership is heartbreaking.
    And we have talked a little bit about women, which 
obviously is important to me, as well as the topic of Latinos 
and Latinas in service. Eighteen percent of Americans are 
Latino, and that is reflected in the military, absolutely. And 
I can tell you, we have so many Latino members of the community 
who, again, have devoted their lives in service and whose 
children are also wanting to devote their lives to service.
    But only 8 percent of the military is made up of Latino 
officers, and that number shrinks. The number is actually 
really shocking to me. Only 2 percent of Latinos make it to 
general and flag officers.
    And so all of you have given a lifetime of service. I am 
very curious, just your own personal perspective, why is this 
the case?
    General Seamands. Thank you for the question.
    I would submit that when we talk about general officers or 
flag officers, if we are looking at the captains or colonels, 
we are almost too late in the equation. We have to get, kind of 
to your point, to the accessions, to the lieutenants, to the 
academies, to ROTC, and start the process.
    So the Army is working to make up lost ground in terms of 
our representation of Hispanics in the formation, but we won't 
solve it today or tomorrow. It has got to be a long-term 
approach. It has got to be an investment in those young men and 
women who aspire to come into service and to encourage them to 
serve, apply, and be competitive.
    Right now our numbers don't look--aren't where they need to 
be, and we will continue to work that. As Chairwoman Speier 
said, by 2040, I think you said, 40 percent are minority-
majority. So we have to get after it, we have to focus on it, 
and be deliberate in our efforts.
    Ms. Escobar. And I so appreciate that, and you and I have 
had this conversation before in my office and appreciate that 
conversation. And I appreciate the commitment going forward. My 
question is more of a look back. How did we get here?
    General Kelly. Congresswoman, I don't have complete 
analysis or a complete understanding of how we got here, but I 
will tell you that one of the barriers that we have been able 
to uncover through our barrier group is a lack of official 
mentoring.
    So there are lots of important effects that happen between 
a mentee and mentor relationship. And so what we established is 
we established this program we call MyVector that lets people 
list their backgrounds and their interests and where they are 
at and has mentors list their backgrounds and interests. And we 
make pairs, and we make mentoring pairs, and we put 
responsibility on the mentor to make sure they are doing 
coaching and going through and giving good advice and giving 
good help to those folks.
    Because what we find out is sometimes our underrepresented 
groups come in and by the time they get to those ranks they 
didn't know, they didn't know about an opportunity, they didn't 
know they should be doing certain things, they didn't know they 
should be taking these steps that are going to increase their 
chance for advancement.
    So we are starting early on mentoring and making sure we 
are doing that. We are hopeful that is going to improve that. I 
don't know how we got there, but that is one of things that we 
are doing to try and improve it.
    Ms. Escobar. And it sounds like from what you are saying is 
that sometimes service members don't know what opportunities 
lie ahead. That is on us then, that is on us.
    Gentlemen, anyone else?
    General Seamands. If I can have an alibi, ma'am. Within the 
Army we have migrated to what we call AIM-2 [Assignment 
Interactive Module Version 2]. It is a marketplace for 
officers. So we have 15,000 officers who are moving in summer 
of 2020. In the past Human Resources Command would take a look 
at an officer, what their qualifications were, and give them 
three to five options.
    We have put every assignment in the marketplace and 
everybody had an opportunity, all 15,000, to make a value 
proposition to the unit as to what I would bring to the unit, 
and every unit has an opportunity to say this is why I want you 
on my team.
    And so we think that is going to increase the diversity. 
There is a lot of talent out there, quiet people, introverts, 
people who have exceptional capabilities that are not 
recognized, and we think this will bring that to the top.
    General Rocco. And, ma'am, that is a great question.
    So on the enlisted side we actually do very well on the 
senior enlisted side. When we look at our Latino promotion 
rates at the E-8 and E-9 level, they do very well. On the 
officer side, not as good, as you pointed out.
    And I will say for the Marine Corps--and I don't have a 
good answer for you--but I will tell you on the Marine Corps, 
when you look at--we have less than 100 general officers. Our 
average promotion rate to general officer for the population is 
less than 3 percent. And right now we have 15 general officers 
of diversity: 4 female, 5 African American, 3 Hispanic, and 3 
Asian.
    That statistic is not to defend we are doing well. We are 
not doing well. We can always do better. But that is one of the 
things that we are taking a look at. And, again, from analysis, 
on the Exit and Milestone Longitudinal Survey that we are 
doing, we are trying to gather that information. Because that 
is one that stands out. Again, percentages not being the same, 
we do better on the enlisted side; we don't do as well on the 
officer side.
    Ms. Escobar. Thank you. I am out of time. I yield back.
    Ms. Speier. Thank you.
    Actually, most of you could do a lot better in the officer 
area than in the enlisted.
    I am curious whether or not you have considered doing 
recruiter bonuses to augment the numbers of persons of color 
and women. Is that something that you have contemplated? Do you 
ever give recruiting bonuses to recruiters? And if so, have you 
contemplated doing it as it relates to people of color and 
women?
    Admiral Nowell. Ma'am, I will just let you know that 
actually as we look at our recruiting force, and we fairly 
recently transformed the way that we do recruiting from the 
standpoint of going away from a single recruiter working 
someone through the whole process to focusing on their 
strengths. Are they best at sourcing and sales, finding, 
classifying, or then onboarding? And that has reduced attrition 
which is good for all categories.
    But we have also added an incentive that if they, as a 
team, meet their goals, and we do have the diversity goals, 
then the team gets a kicker to their special duty assignment 
pay. So we are using it in somewhat the manner that you just 
described.
    I will also mention that as you look at the sailors, the 
future sailors that we are recruiting, there are incentives for 
them to bring their friends in as well, and so, you know, that 
helps us grow from that manner as well.
    Ms. Speier. Any other comments?
    General Rocco. Just in the Marine Corps, ma'am. So last 
year, there was a 40 percent diversity on the enlisted side and 
about 30 percent, just over 30 percent on the officer side. So 
I think they are doing a good job, again, a merit or standards-
based organization.
    Ms. Speier. Not in gender, though.
    General Rocco. I am sorry?
    Ms. Speier. Not in gender, though.
    General Rocco. Yes, ma'am. We are low. That is exactly 
right. Although we have increased it every year, we still 
haven't--we haven't certainly gotten to where the population is 
and where the female population is.
    Ms. Speier. I think you need to go to girls' high schools.
    Mr. Kelly of Mississippi. Can I make one comment? The only 
thing I caution you about as the senior personnel, if we start 
putting all of our women and minorities, okay, into drill 
sergeants and into recruiters, we take them out of those key 
qualifying positions, okay, whether it be NCOs [noncommissioned 
officers], and so we may actually--when we are talking about 
the senior level leaders, if we put them there, we may cheat 
them out of being here. And I would just ask that you watch the 
second- or third-order effects and make sure that we are--that 
we are not putting all our women as recruiters or drill 
sergeants or those commands and cheating them out of 
opportunities to become GOs [general officers], and so I would 
just really caution you on that.
    Ms. Speier. A good point, a very good point, but 
particularly for the academies. I think going to girls' high 
schools and religious high schools, certainly in my experience, 
I have a higher number of applicants from the Catholic schools 
which is maybe just a phenomenon in my area, but it is worth 
looking at for all of you.
    All right. Any other questions for our panelists? I hope 
you are all going to stay to listen to the second panel. Thank 
you very much. We are going to take a couple of minutes recess 
so we can change out the panel.
    Thank you all very much for being here and obviously for 
your service to our country.
    [Recess.]
    Ms. Speier. All right. We are now going to begin our second 
panel. Thank you for being here. I guess we are missing Ms. 
Campos-Palma. Is that right?
    Ms. Williams. She is just in the restroom.
    Ms. Speier. Oh. She is in the--okay. Well, we will give her 
that. Okay.
    Our first panelist is Ms. Kayla Williams. She is currently 
a senior fellow at the Center for a New American Security. 
Kayla was enlisted in the Army for 5 years as an Arabic 
linguist, serving in the Military Intelligence Company in the 
101st Airborne Division. She is also the author of ``Love My 
Rifle More Than You: Young and Female in the U.S. Army.'' I 
love the title of that.
    Our second panelist is Pam Campos-Palma. She is currently a 
strategist who is known for building change through grassroots 
efforts. She has served in the Air Force as an operations and 
antiterrorism intelligence analyst where she deployed to Iraq 
and Afghanistan. She'll be joining us momentarily.
    Finally, Bishop Garrison is a 2002 graduate of the U.S. 
Military Academy and served two tours in Iraq prior to leaving 
service. Mr. Garrison is currently the Director of National 
Security Outreach at Human Rights First.
    We will start with you, Ms. Williams. Thank you so much for 
joining us today.

   STATEMENT OF KAYLA M. WILLIAMS, FORMER U.S. ARMY LINGUIST

    Ms. Williams. Thank you.
    Chairwoman Speier, Ranking Member Kelly, distinguished 
members of the committee, thank you for the opportunity to 
discuss a topic I believe is of vital importance to the long-
term strength of the United States military. It is an honor to 
have been asked to share my experiences as a minority in the 
military, including what drew me to service and why I left.
    As a child, I occasionally got food stamps and free school 
lunches. The shame of growing up in poverty was coupled with 
gratitude that the Nation had invested in me. As a young adult, 
I vowed my children would never have to experience the fear of 
eviction. So anxiety drove me to pursue any opportunity to 
enhance my long-term financial stability. The military offered 
me training in high-value skills and access to the GI Bill, but 
crucially, it also provided a way for me to repay my debt to 
society through service.
    During my 5 years in the Army, including a deployment to 
Iraq, I acquired both tangible skills and invaluable intangible 
attributes such as perseverance and confidence. Unfortunately, 
being forced to constantly navigate an environment that 
frequently seemed unwelcoming to women ultimately drove me out.
    I faced chronic and pervasive gender discrimination and 
sexual harassment ranging from snide comments and offensive 
cadences to being repeatedly propositioned and experiencing 
unwanted sexual contact. The pervasive attitude among my peers 
was that this was to be expected in a male-dominated 
environment.
    Men almost universally discouraged reporting problematic 
behavior because doing so might ruin the perpetrator's career. 
Women often discouraged reporting as well, warning that doing 
so would hurt my career. Lack of accountability when I did 
report incidents was totally disheartening.
    Sexual assault, harassment, and discrimination harm 
military retention, full stop. Leaders must value the careers 
of talented women over those of criminal men. Rates of 
harassment and assault have not dropped substantially since I 
left Active Duty. Reporting remains relatively low, and 
retaliation is still high.
    Recent examples of senior leaders being relieved of command 
for sexual harassment or toxic command climate indicate to me 
that the zero-tolerance message emanating from the top is still 
not taken seriously at all lower levels. That type of bad 
behavior was almost certainly apparent earlier in their careers 
and did not stop these leaders from climbing in the ranks. 
Extensive coverage of this concern affects recruiting as well. 
Young women and their parents often ask me whether I would 
recommend military service given this risk.
    Other outdated and unfriendly policies and practices that 
disproportionately affect women were the other major driver 
behind my exit. Caregiving responsibilities that developed when 
my spouse was severely injured in Iraq were incompatible with 
Army life, and there were no off and on ramps at the time that 
would have allowed me to resume my career effectively once he 
was stabilized.
    Athletic, muscular women who score high on physical fitness 
tests are often subjected to outdated, inaccurate, embarrassing 
tape tests to determine body fat percentage. Equipment and 
clothing are often ill-fitting for women. In Iraq, men could 
urinate in tubes right next to tents while wearing flip flops. 
Women had to fully gear up and hike a quarter mile for every 
bathroom break. The only socks for sale in the shopette were 
size large. They never sold hair conditioner. Needing birth 
control on deployment to regulate menstruation had to be 
explained to providers or even commanders who did not 
understand that this was about hygiene, not sex.
    Each of these small indignities alone is minor and easy to 
ignore. Cumulatively, they constitute a barrier that drives 
down women's retention with death by a thousand cuts. The 
combination of near daily personal interactions, waiver 
requirements, and outdated policies that constantly remind 
women we are other, outside who was being considered when norms 
were established, forced to struggle to fit into an institution 
designed for men. DOD [Department of Defense] and the services 
should seek to identify and eliminate outdated and 
discriminatory policies and practices across life domains to 
keep talented women and other minorities once they are serving.
    As the military works to modernize its recruiting 
strategies and messaging, I also call upon Congress to increase 
the number of young people who qualify for military service 
through national programs to reduce obesity, increase physical 
fitness, continue educational gains, and end the school-to-
prison pipeline, problems that disproportionately affect 
military--I am sorry--minority communities. Congress should 
also end discriminatory policies such as the military 
transgender ban, and Members can ensure diversity among their 
nominees for the service academies.
    The military must compete for top talent across demographic 
sectors in a rapidly diversifying Nation. And while I have 
focused primarily on women, these issues are broad ranging and 
intersectional. We risk critical failure should we need to 
dramatically expand the size of the force and accordingly must 
increase the population that can meet military standards, 
improve recruitment so troops can better reflect our Nation, 
and enhance efforts to retain talented personnel. Thank you.
    [The prepared statement of Ms. Williams can be found in the 
Appendix on page 83.]
    Ms. Speier. Thank you, Ms. Williams. Just for the record, 
my three nominees last year were all female, the first time 
ever.
    Ms. Campos-Palma.

     STATEMENT OF PAM CAMPOS-PALMA, FORMER U.S. AIR FORCE 
                      INTELLIGENCE ANALYST

    Ms. Campos-Palma. Thank you, Chairwoman Speier----
    Ms. Speier. We introduced you in your absence, by the way.
    Ms. Campos-Palma. Oh, thank you, I appreciate that--
[continuing] Ranking Member Kelly and members of the committee 
for the opportunity to speak before you today.
    My name is Pamela Campos-Palma. I served in the United 
States Air Force as an operations intelligence analyst from 
2006 to 2016 on Active Duty and as a reservist. While on Active 
Duty, I had the privilege of serving overseas in Germany, Iraq, 
Kyrgyzstan, and Afghanistan.
    I was born and raised in a working-class town near Boston, 
Massachusetts. My mother immigrated there from Honduras. She 
was the one who pushed me to enlist when I was 18 years old 
after a school administrator dissuaded me from applying for 
college based on her racial bias that, quote, someone like me 
would not succeed there.
    Not having any connections to college-educated people and 
having no familiarity with the U.S. military, my mother took me 
to the recruiter's office and had me enlist for money for 
college, a chance at upward mobility, and the opportunity to 
serve my country.
    I chose the intelligence career field, knowing nothing 
about it except it required high ASVAB [Armed Services 
Vocational Aptitude Battery] scores and was among the most 
difficult military jobs to get into. I assumed it would grant 
me the best chance to work in a secure environment and have 
better job prospects.
    My military career was full of challenges. Some grew me in 
incredible ways, and others were rooted in systemic failures 
that resulted in unjustified harms, avoidable inequities, and 
made it largely untenable for me to serve to the best of my 
ability and with integrity.
    I count myself lucky that my career started with a senior 
intelligence officer, an SIO, at my first unit who showed me 
what a good military leader was. He modelled respect and 
integrity, pushed personal and professional development and 
mentorship, encouraged ingenuity, and most of all and most 
importantly, he cultivated a culture of accountability.
    I worked hand in hand with high-level commanders, law 
enforcement, and air crews, was responsible for briefing 
complex attacks, highly sensitive analysis, and recommending 
courses of action. In addition to this extremely demanding, 
high-stakes job during a high operations tempo--at the time it 
was ranked number one for suicides--my military service as a 
queer woman of color was marked by several additional issues. 
Throughout my military career, sexual violence, harassment, and 
gendered hostility were and remain part and parcel to military 
service. In addition to seeing and supporting peers who had 
been raped or intervening in various near-rape encounters, I 
myself experienced assault multiple times. One assault was a 
homophobic retaliation by an airman who resented I would not 
return their advances.
    The feeling of being preyed upon and undermined from within 
made an already challenging role even harder. Despite the 
military's pluralism, the Armed Forces personnel management and 
policies failed to recognize and modernize to the needs and 
long-term wellness of its diverse force. Personnel policies 
that touch on health, physical fitness, career development, 
naturalization, inclusive service, and family planning are 
broken and biased against women, parents, people of color, and 
LGBTQ [lesbian, gay, bisexual, transgender, and queer] service 
members and set us up for failure. Standards set by and for 
white men as the default starting point fails to see the whole 
force picture, and we know that it results in terrible uniforms 
and gear designed for women, dysfunctional promotion pipelines, 
body dysmorphia, eating disorders, depression, misdiagnosed 
women's health issues, to name a few.
    The foremost reason I left Active Duty was the issue of 
unchecked toxic leadership and the culture of impunity and lack 
of oversight that enables them. One bad leadership transition 
is all it took for my unit, which was once known for top 
excellence, to become rife with fraud, waste, abuse. I was a 
target for outright racial and sexist discrimination and 
retaliation. I saw junior officers' performance reports and 
careers held hostage to dissuade them from intervening or 
whistleblowing.
    Most importantly, functional and trusted mechanisms to 
meaningfully defend or protect myself felt scarce. Over the 
course of my career, I saw significant brain drain of the best 
leaders decisively leaving in large part because of the high 
tolerance for corruptive behavior, especially at the highest 
echelons.
    In the end, it is irresponsible to rely on targeted 
recruitment of people of color, women, and working-class people 
as prospective enlistees into an enterprise that cannot offer 
the most basic workplace accountability, securities, and 
retention.
    Timely and related, a more diverse military does not solve 
our retention problem, that service members are burned out by 
endless deployments, costly training and taxing personal and 
familial hardships, for questionable, never-ending wars. This 
is an increasingly growing sentiment as training accidents 
continue, lives are lost, suicide rates have not substantively 
gone down, and moral injury grows.
    In addition to urgent action towards military justice 
reform, research sanctioned by Congress that specifically 
surveys minority groups is vital. Specific objectives around 
enlisted women with distributed race representation across 
branches, transgender, and gender non-conforming troops that 
are currently in and have been discharged within the last 5 
years, troops of color, and religious minorities is vital to 
get direct insights and assess the scope and scale of 
structural and cultural gaps.
    More assertively partnering with our allies, mil-to-mil 
contact with Australia, Canada, and Great Britain and their own 
research design which I would say is more advanced than ours 
and work around these problems, is essential.
    I was encouraged several times to commission in the United 
States Air Force by ranking officers I deeply admired. I joined 
the Reserves specifically wanting to make a change from the 
inside, even if it was in a small part. And although it was a 
more safe and healthy environment thanks to a masterful 
intelligence commander, with much sadness, I realized that I 
had outgrown the institutional and cultural limitations and had 
to continue my service to my country in a different capacity.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Ms. Campos-Palma can be found in 
the Appendix on page 94.]
    Ms. Speier. Thank you.
    Mr. Garrison.

     STATEMENT OF BISHOP GARRISON, FORMER U.S. ARMY OFFICER

    Mr. Garrison. Chairwoman Speier, Ranking Member Kelly, 
distinguished members of this committee, thank you for holding 
this hearing and for the opportunity to provide this testimony.
    In the early morning of September 11, 2001, I walked out of 
my national security law seminar with a close friend and fellow 
West Point cadet. As we turned the corner, we came across a 
young instructor, a major, who was transfixed by footage 
displayed on his projector. Inexplicably, a jetliner had 
crashed into a tower in the financial district of Manhattan. 
The World Trade Center, he told us. We were dumbfounded. How 
could such a horrific accident take place? Then, together, we 
watched as the second plane crashed into the South Tower, 
erupting into flames. The major glanced over his shoulder in 
our direction and then back to the screen. Well, gentlemen, he 
told us, it looks like we are going to war.
    We graduated June 1 of the following year, 2002. By 
February of 2003, I was in the Anbar Province of Iraq for my 
first of two deployments. But I was no stranger to service. My 
mother was a career educator in South Carolina, and my father, 
who was drafted and received a Bronze Star in connection with 
his service in Vietnam, spent his career helping veterans find 
work through the South Carolina Department of Employment and 
Workforce.
    Notwithstanding their upbringing in a segregated South, 
they always stressed the importance of giving back to both 
community and to our country. But when my father was recruited 
to attend Officer Candidate School, he declined. Though he 
excelled in the military--men from his First Cavalry Unit, all 
white, have reached out to me to praise him over the years--my 
father saw an Army with leadership that did not seem to value 
men of color equally.
    Although the military has made remarkable strides toward a 
true meritocracy since my father's era, serious problems 
linger. I am immensely grateful for the opportunities my 
military service provided. I would not be sitting before this 
committee today had it not been for what I learned and achieved 
in the military. My appreciation and love for this service is, 
in fact, why I believe it is so important for this committee to 
engage in this discussion. But had I been afforded more direct 
mentorship and more examples of leaders who reflected my own 
life experiences, I would have been more likely to remain a 
member in the Army. Like my father a half century before me, I 
decided to seek out other ways to continue serving my community 
and my country.
    Before addressing the challenges we face and potential 
solutions, I would like to establish why diversity of our 
military forces matters. First, it fosters cohesion. A report 
from Cornell University states that some studies have found 
that higher overall levels of cohesion are associated with 
individual benefits of increased job satisfaction, retention, 
and better discipline outcomes. This suggests that promoting 
inclusivity and respect within the ranks is not only the right 
thing to do morally but also a matter of national security. A 
more cohesive unit is a stronger fighting force.
    Moreover, in order to address a diverse set of threats 
across the globe, we must strive to include a diverse set of 
life experiences and perspectives. The young female 
intelligence analyst from Oakland will view the world through a 
different lens than her male counterpart from Biloxi or from 
her older leader from Santa Fe, and this diversity helps 
overcome groupthink or tunnel vision which, in war, can prove 
fatal.
    It is also important to note that some of the current 
discourse in American society and some of the current 
administration's policies could be affecting interest in 
serving, especially among minorities. The militarization of our 
Nation's southern border, the deportation of veterans, the 
potential rescission of the Parole in Place program, tenuous 
status of Dreamer service members and veterans, the transgender 
service ban, the fact that many major military installations 
are still named for Confederate leaders, the ongoing worries 
about white nationalism in the military's ranks, and the fact 
that an individual who holds extreme views on race continues to 
serve at the highest level of immigration policymaking. These 
factors risk causing a detrimental impact on our military's 
ability to recruit and retain new and diverse talent.
    While this issue is admittedly complex, congressional 
action can play a stabilizing role. I welcome the opportunity 
to discuss concrete suggestions today or can provide them at a 
later date. Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Garrison can be found in the 
Appendix on page 103.]
    Ms. Speier. Thank you, Mr. Garrison. I am going to yield my 
5 minutes to Ms. Escobar because she has to leave to go to 
Judiciary.
    Ms. Escobar. Thank you so much, Madam Chair, and to our 
panelists. I cannot tell you how powerful your statements and 
your testimony have been, and I am grateful that leadership is 
in the audience to listen to this. You have gone through a long 
list of, really, challenges that are so significant, it is 
almost impossible to know where to begin.
    Beginning with Ms. Williams, what you described as 
cumulative indignities, and Ms. Campos-Palma, the repeated 
sexual assaults and attacks that you described. Mr. Garrison, 
you are absolutely right. When we allow racism space in our 
country, we shouldn't be shocked that it takes root within our 
institutions and becomes an obstacle to embracing and 
celebrating diversity.
    And so I feel as though the questions that I was thinking 
through are so not appropriate in that the challenge is greater 
than I think we even realize. But to try to get to the root of 
this, and to try to begin to carve out a path for solving this 
tremendous challenge that we have as a country within our ranks 
and within our military, I want to ask you about the culture.
    And if each one of you could just very briefly tell me, 
when there were complaints, when you sounded the alarm, when 
you shared the information with your peers and with your 
leaders, were you met with sympathetic, compassionate ears, and 
leadership that said I am going to go out on a limb to protect 
you? Did that happen, or what actually did happen when you 
sounded the alarm?
    Ms. Williams. When I filed complaints, no appropriate 
action was taken, or if it was taken, I was never made aware of 
it. That led to me not continuing to raise my voice and to 
instead try to find other ways to deal with situations 
informally which still could lead to peer retaliation. And I 
definitely did have some leaders who were willing to back their 
folks. Unfortunately, it was not universal, and the pressure 
from peers to be silent was also very strong.
    I want to say that I do believe that rigorous and sustained 
efforts at culture change can work if it is coupled with 
accountability. To give an example of why I believe that, look 
at the rates of drug use within the military compared to 
civilian culture. Illicit drug use among military personnel is 
.7 percent compared to 16.6 percent of U.S. adults. If rates of 
sexual misconduct are anything similar within the military to 
civilian society, it shows that it is not taken as seriously.
    Ms. Escobar. Thank you.
    Ms. Campos-Palma. It is an interesting question because I 
don't know that it is just about willingness. I also think it 
is about capacity and power dynamics. I think in such a 
hierarchal institution, it is really difficult, and I think 
also an institution that is constantly doing life and death 
missions, work, operations. Prioritizing where we put our 
capital, as leaders, where we put time was always something 
that I felt really conflicted by. I would ask when I 
experienced things that--I think we are trained to say this 
doesn't feel right. This doesn't feel right. This doesn't feel 
in alignment with our core values. It would also be don't rock 
the boat, right. The mantra. Shut up and color. I never 
understood it. It is in direct contradiction of our first core 
value in the Air Force, integrity first.
    And so what I found was incredible officers and NCOs that 
wanted to help, but in my case, as I mentioned, when they did 
try to step up, it was not convenient. They then were at risk. 
And I think it is even worse for enlisted forces, right.
    And so I think that genuinely we are trained to want to do 
the right thing, but I think that--and this is different 
between the branches from my understanding with peers, but 
there is a culture of not wanting to rock the boat and, thus, 
not wanting to step in front, right. Don't be the first, and 
don't be the last.
    And so I think that that is one of the biggest things we 
need to change is to reward people. Where are the rewards for 
whistleblowers? Where are the rewards for people that are 
saying, you know, assault and rape of my peers in my unit is 
not good? I know too many who have been punished for doing the 
right thing.
    Ms. Escobar. And this will have to be really quickly 
because I am out of time.
    Mr. Garrison. I will make it as fast as I can, 
Congresswoman.
    For me, the biggest thing was when I did have leaders that 
wanted to address me and wanted to help, culturally, they 
simply did not know how. And when you talk about--I served my 
time in the 3rd Armored Cavalry Regiment; I was ``Brave 
Rifles.'' And within the officer corps at the time, you look 
across a unit of thousands of men, dozens of officers, and you 
see three African Americans.
    So it is really hard culturally to understand my life 
experience and to be able to connect and engage with me in a 
way that is going to be meaningful and actually have the proper 
impact.
    Ms. Escobar. Thank you, Madam Chair. Thank you all for your 
voices.
    Ms. Speier. Ranking Member Kelly.
    Mr. Kelly of Mississippi. Thank you, Chairwoman. It is an 
All-Volunteer Force, and so I will tell you this. I come from 
Mississippi. I think there is nobody here who will say there 
haven't been some racial issues in my State, but I didn't make 
them better by leaving the State, okay. I was able to see one 
of my mentors, General Leon Collins, who was the first African-
American commander of the 155 BCT [Brigade Combat Team] as a 
brigadier general, the first African-American officer in the 
Mississippi Army National Guard, and I went to war with him.
    What a great leader, but he stayed there because he fought 
through all the things that happened at my alma mater, Ole 
Miss, the James Meredith being admitted, all of those things, 
he fought through those and persevered so that he could be that 
example for all the other African Americans that followed.
    The same thing happens with females. We have to have strong 
people. So as a brigade commander in the 168th Engineer 
Brigade, I had the first woman battalion commander who served--
me as a brigade commander, and she was a battalion commander. 
That was not that long ago. I had an African-American battalion 
commander my entire staff, but I fixed that by being there. 
They fixed that by being the next generation, because now there 
is no excuse.
    As brigade commander, I was followed by the first two 
African-American brigade commanders who followed me, one who is 
still in command or people who I hope that I am a mentor to.
    So my question is, Mr. Garrison, especially to you because 
I respect you so much and your father, okay. But we can't fix 
it--we need guys like you to be there right now so that you can 
be a GO. But you know what? You are not there, so what do we do 
to make sure that the Garrisons and the Campos-Palmas and the 
Williams, what do we do to make sure you guys become the role 
models for the next generations of leaders, the ones who will 
carry that mantra and be that next African-American brigadier 
general or four-star general or the next female or Latino or 
whatever. How do we do that?
    Mr. Garrison. Sure. Thank you, Congressman. First and 
foremost, I appreciate your words on that, Ranking Member. The 
biggest thing I would say is that we have to keep in mind we do 
not make these decisions and policies in a vacuum. We are a 
Nation that has been at war for nearly two decades now.
    By the time I finished my second deployment, I had been 
deployed for 2 years out of roughly about 34 months. So out of 
the 36 months total, I was gone in Iraq during that time. So 
that takes a toll. We are at a point now where we are looking 
at members who have--service members who have been on multiple 
deployments, who have been gone five, six, seven times.
    Not to take away from any potential service that has 
happened in the past or between wars previously, but it is a 
different dynamic that we are working with that this Nation has 
not dealt with previously. So that is the first thing.
    The second thing is as I mentioned before, some of the 
societal effects that we are seeing in domestic policy and in 
our Nation are having an effect on interest of young people to 
serve. There was a report done recently by the National Defense 
University that said 73 percent of African Americans in Active 
Duty service right now are incredibly proud of their service. 
When asked if they would recommend service to a young person, 
45 percent said absolutely not. That is a problem that we are 
facing right now, and it is a part of this dynamic.
    And when we talk about--and some of these things are things 
that Congress can affect. We can look at--I would recommend 
that Congress take a look at the nominations process and see 
how we are actually drawing talent for the academies as well as 
looking at demographics for ROTC because it is not just the 
academies that we get leadership from. We get it from ROTC as 
well. But we have to ensure that whatever policies we put in 
place reemphasize the importance of keeping these young junior 
military officers in place so they can go through the ranks and 
they have those opportunities.
    Mr. Kelly of Mississippi. Yeah. And I think part of that 
is--I mean, I was in with General Miller today, and his service 
stripes, his overseas service stripes were above his elbow 
which means he has had more time downrange than he has before, 
okay, and that is our senior leaders. I mean, I was gone for 3 
years out of 5 at one point in my kids' life; 3 years out of 5, 
I was downrange.
    And so we all face that, but how do we get African 
American, Latino? Is that recruiting HBCU [Historically Black 
Colleges and Universities] universities and ROTC in greater 
numbers? How do we get greater numbers at the entry level 
because until they are at the entry level, we can't get them at 
the exit level. And then we have to have people, we have got to 
figure out what it makes--what it does to keep them to stay to 
be a senior officer. Yes, ma'am.
    Ms. Campos-Palma. I think that we--I find it interesting 
that in your question and even in the last panel, there seems 
to be this focus on bringing people in. If they don't have 
mentors and solid--if the people that are going to be their 
commanders, their supervisors, their wing commanders are not 
stable, then we are setting them up for failure. So I think 
that is first.
    I would also say the last time I went up before a 
commissioning board, we were asked if you become an officer of 
the United States Air Force, what is the single issue that you 
want to tackle? The person I was going up against said fitness. 
My answer was I would eradicate sexual violence in our military 
because at the time, we had just had three colonels convicted 
for--well, not convicted. They were found inappropriate 
behavior. They weren't convicted.
    And they had a female colonel speak to me afterwards to ask 
me if I had something to share, if I was okay, is everything 
all right. And I said why? And they said, well, the board found 
your answer a little concerning. And so I think that the way 
that we measure and define strength, progress, success, is 
really important more than ever. So when you say that we need 
strong leaders, I am curious what that is.
    And I will just finish by really quickly saying that 
hearing the last panel, I did have some pride in being in the 
Air Force. I know we get a lot of jokes, but Colonel Gina 
Grosso was one of the great officers that I had the privilege 
of serving with. She was the first woman high-ranking general 
in personnel in this role, and she warned us about this. She 
said, do we need more brawn, or do we need more intellect. We 
are going to have to look at a different way of measuring 
strength in the military, so that is what I would say.
    Mr. Kelly of Mississippi. I agree. And we don't have time. 
I have got to yield back, but I do think some of the people 
sitting at this table, we need you to stay. And I am saying 
that not to you-all but the other people who are out there. We 
need you to stay to be tomorrow's senior leaders, to be those 
mentors because we can't get mentors without people staying. 
With that, I yield back, Chairwoman.
    Ms. Speier. Thank you.
    Congresswoman Davis.
    Mrs. Davis. Thank you very much. Thank you all for being 
here. And you know, it is interesting because as I was sitting 
here in the first panel, I really did want to ask what impact 
do you believe that the events that we have been through in 
this country over the last 20 years, if you will, have really 
impacted recruiting, retention, and culture. And obviously 
there is a difference in recruitment after 9/11 which, you 
know, Mr. Garrison, you brought up as well.
    But I just was wondering about the connection. It felt to 
me like in some ways, with all due respect to our first panel 
that, you know, then it is almost like the reverse. Like, I 
would like to know from all of you what the impact of hearing 
our witnesses here has been, if any, you know.
    Is that a story that you have heard many times over, or is 
that something that often you don't have an opportunity to 
listen to and to sort of hear about, whether it is toxic 
leadership or whether it is a concern about the perception of 
where we are in the country in terms of respecting all 
individuals. And so I think that, you know, sometimes you want 
to go back and forth a little bit and have that discussion.
    So let me go to the panel in front of me right now and just 
ask. I mean, in addition to what has been said, Mr. Garrison, 
you did say you had some ideas for the Congress, and you have 
all mentioned this in some way.
    Could you elaborate a little bit more on that in terms of 
again taking in the discussion that you heard earlier? How can 
we connect those stories, that which you bring and also by the 
great leadership of our country that has been here as well?
    Mr. Garrison. Yes, Congresswoman. I will try to make my 
remarks brief so my colleagues can have time to reply as well.
    There are two things quickly. There is one thing the 
ranking member asked about that I neglected to hit on. I would 
say eradicating white nationalism within our ranks has to be of 
paramount importance. It is something that is affecting the 
discipline of our units, and it is something that is going to 
continue to affect the recruitment and retention of our talent 
pools.
    The other thing that I noted, particularly from the Army G-
1 [Deputy Chief of Staff for Personnel], from General Seamands. 
He mentioned that focusing on the urban areas, 24 different--
excuse me--22 different cities and the Warrior Program, I think 
those are great tools, but those are a part of the process. My 
question is when you are going to those cities, what is the 
content? How are you designing these programs in a way that 
will best affect the maximum--ensure that you have the maximum 
outcomes that you need in order to bring these young recruits 
in. And I think the process is incredibly important, but we 
have to continue to review what content, how are we designing 
these programs to actually engage with these young people.
    Mrs. Davis. Thank you.
    Ms. Campos-Palma. I am very interested in the contradiction 
that a warrior class that is so trained in high levels of 
discipline, there is a disconnect there. Like, who gets 
disciplined I think is really important. We were having a 
conversation earlier. I think it is imperative if we allow 
people to get away with toxic leadership, abuse, corruption in 
the military, it sets the standard, and in my opinion, it is 
the standard. Story after story that comes out of some person 
abusing their power in the military. Our institution of 
discipline, of strategy, says to everyone that we are 
illegitimate, and how can we even be trusted?
    And so the military currently is the most trusted 
institution in our country. I think that we have a big threat 
of losing that if we do not make examples of high-level 
offenders, and it doesn't have to be outright rape, right. Of 
course, and this bleeds over into the veteran community, the 
trauma that then transpires within the military ranks and then 
outside of it because we are not rooting this out.
    But also as in my case, abuse of power. Where is that? And 
also good--good models of leadership. I wish that I could tell 
you high-level leaders, first shirts [first sergeants], that 
are being rewarded in the way that they deserve, and I don't 
think that they are.
    Mrs. Davis. Thank you.
    Ms. Williams. To respond to some of the things that I heard 
in the first panel, first, I want to mention that as somebody 
who has aged into the influencer demographic, I want to praise 
the Navy for a really great ad they have targeting me as the 
mother of a daughter. They are doing great. I think the Army's 
Warriors Wanted campaign isn't as well suited for the modern 
era, and I really hope the next phase highlighting other jobs 
is going to be better at attracting a more diverse population.
    And then to talk about retention, Lieutenant General Rocco 
mentioned the importance of mentoring. And I want to call out 
the grave concern that in the era of heavy emphasis on sexual 
assault and harassment prevention and then also coupled with 
the #MeToo movement in the civilian sector, we have heard both 
within the military and in the civilian sector of men being 
more reluctant to mentor women because of their fears in this 
climate. So how do we combat that so that we have men willing 
to mentor the next generation of leaders as women because we 
don't have enough women to do all of the mentoring of all of 
the rising ranks, so that is an area of concern that I will 
raise. Thank you.
    Mrs. Davis. Thank you.
    Ms. Speier. I must say that all three of you have provided 
remarkable testimony. My heart broke a couple of times as I 
listened to each of you talk about your experiences. You are 
great service members and the fact that you left is a great 
stain on our military. And I would hope for all of our chiefs 
that are here, thank you so much for staying, I think you can 
recognize that there is some strong messages coming from each 
of you, and you have to be listened to. There is too much happy 
talk, and we need to spend more time drilling down with a 
serious discussion about what is wrong and, you know, kind of 
face it and address it.
    So Ms. Williams and Ms. Campos-Palma, what years were you 
in service?
    Ms. Williams. I was Active Duty from 2000 to 2005.
    Ms. Campos-Palma. I was Active Duty from 2006 to 2010 and a 
reservist from 2011 to 2017.
    Ms. Speier. I am sorry. And the Reserves between 2010 and 
2017, is that what you said?
    Ms. Campos-Palma. Correct.
    Ms. Speier. You know, I have been working on the issue of 
sexual assault in the military now for over 9 years, and when I 
hear these stories, I just--I shake my head in disbelief that 
we still can't seem--we have spent so much money and given so 
much attention to this issue, and I fear that we are not having 
the impact we need.
    Now, in fairness, you served before we took this issue as 
seriously as we do now. I am just wondering to what extent your 
experiences are being replicated even now in the military. To 
you, Mr. Garrison, I join my colleague, Ranking Member Kelly, 
in saying what a loss that you are no longer serving.
    I guess my question to each of you is if you were sitting 
here as opposed to there, give me three steps that you would 
take in terms of dealing with the issue of retention. We didn't 
spend as much time in the first panel on retention, but what 
are the three steps you would undertake to encourage that we do 
not lose talent like each of you represent?
    Ms. Williams.
    Ms. Williams. Thank you. First, to your question of whether 
or not sexual harassment and assault efforts have taken root; 
2006, the sexual assault rate of Active Duty women past year 
was 6.8 percent, and in 2018, it was 6.2. So I don't see that 
as tremendous progress, and please note that the rates are 
significantly worse for LGB [lesbian, gay, and bisexual] 
service members. That is reflected in my written testimony as 
well as DOD's own reports, but please, in terms of 
intersectionality, this is of grave concern.
    For things that I would encourage, a total scrub of 
policies to look for unintended discriminatory effects and to 
carefully review DACOWITS' [Defense Advisory Committee on Women 
in the Services] well-researched and thoughtful 
recommendations. You asked for three, but those are two.
    Ms. Speier. Okay. Thank you.
    Ms. Campos-Palma.
    Ms. Campos-Palma. There was a lot of conversation, I think, 
around representation, but we know that representation doesn't 
exactly mean leadership, and so I think there needs to be an 
analysis around what levels of leadership. People like Colonel 
Grosso, did they get to meet their agendas? Did they have real 
power to implement changes in policy? So what do the exit 
interviews look like for our highest ranking diverse leaders?
    Secondly, the military justice system fails us not just for 
sexual assault, but as Mr. Garrison mentioned, white 
nationalism is a considerable threat. And if I was in right 
now, in the units that I am in, I have done this exercise, I 
don't know how I would really report that, right, so clarity 
and really taking a look at the military justice system.
    And I would also say just a fine point on military justice, 
who are the people we are willing to lose I think is extremely 
important. As he mentioned, simple things like are we 
streamlining naturalization processes for citizens in the 
military?
    Third, our military strategy and identity is in crisis and 
is failing our people. I would suggest you look at specific 
intelligence career fields that have now shifted to a different 
military strategy, different region of the world. Cyber has now 
forced us to look at different ways that our military will have 
to operate in the future.
    And so in this question of are we in the right conflicts, 
and are we fighting these conflicts wisely and burning our 
people out, missions like the DCGS [Distributed Common Ground 
System] mission is a good place where people have started to 
say to me personally, you know, I am seeing different patterns.
    People aren't as depressed. People aren't as burned out. 
There is better life balance. We are going to have to move 
though that mission, I think, and so I would urge you to speak 
specifically to those individuals who are already starting to 
see changes.
    Ms. Speier. Thank you.
    Mr. Garrison.
    Mr. Garrison. Yes, Chairwoman. Thank you. I have already 
given you one idea in terms of the white nationalism. Another 
thing that I would say is that we do want to be careful of 
running the risk of--if you are familiar with the NFL [National 
Football League], they had a rule called the Rooney Rule for a 
bit where every interview had to include a person of color and 
what you ended up seeing is that they would just do the bare 
minimum, have that person of color, and then go with whatever 
candidate they ultimately wanted to go with.
    So the one thing I want to say is that we need to create a 
culture in which we are pushing our leaders to ensure that they 
are identifying talent, top talent among people of color and 
among women and that they understand the importance of 
identifying that, and it is not simply to check the box. I am 
heartened to hear what the G-1s had to say today.
    I think that we are definitely on that arc, moving in that 
direction, and we are beginning to see that, but it is 
incumbent upon the civilian authorities, Congress, and the 
executive to ensure that we hold them accountable and we are 
continuing to make sure that that is something they are 
ultimately doing.
    And we want to create a culture that has true inroads and 
rewards those who look to lift up those from vulnerable 
communities more often and really look at achieving that 
talent.
    We have a system right now in which everyone has to meet 
the standard. They are not different standards for anyone. And 
we have to do everything we can to re-emphasize that and ensure 
that our military, the culture, understands that that is the 
fact and we want to do everything we can to reward individuals 
who meet those standards.
    Ms. Speier. All right. Thank you, very very much.
    That will conclude our hearing today. There is a lot of 
grist for the mill. Your contributions have been extraordinary 
and I want to say thank you again for the service you have 
provided when you had a uniform on and the service you provided 
to us today.
    We stand adjourned.
    [Whereupon, at 4:24 p.m., the subcommittee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                           December 10, 2019

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 10, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           December 10, 2019

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER

    General Seamands. Of the three main uniforms worn by Army 
personnel, the Female uniforms are approximately $30 less than the 
unisex uniforms.
    New enlisted personnel are provided an initial issue of Army 
personal clothing items, commonly referred to as the ``Clothing Bag''. 
The female clothing bag costs $1,573.24; the male clothing bag is 
$1,606.61. The difference in cost is because the male Soldier is issued 
undergarments; female Soldiers receive a cash allowance to procure the 
undergarments that best suit their individual needs.
    Female Soldiers receive a $291.75 cash allowance to purchase 
undergarments, a handbag, and athletic socks when they first enter the 
Army. Male Soldiers receive undergarments as part of their initial 
issue and a $7.99 cash allowance to purchase athletic socks.
    To maintain the required uniforms and other personal clothing items 
during the time of enlistment, Soldiers receive an annual Clothing 
Replacement Allowance (CRA). For the first three years of enlistment, 
Female Soldiers receive a Basic CRA rate of $322.49 vice the male rate 
of $330.41. After three years of service Soldiers receive a Standard 
CRA. The Female Standard CRA is $472.01, and the Male Standard CRA is 
$460.71.   [See page 17.]
    Admiral Nowell. On the average, female specific mandatory uniforms 
are less expensive than equivalent mandatory male uniforms. The 
exception is the female O-4 through O-10 Dinner Dress Jacket Uniform, 
which is more than the equivalent male uniform.
    Uniform Ensemble--Male Female Uniform Ensembles Cost
    E1-E6 Service Uniform $176.23 $158.38
    E1-E6 Service Dress Blue $330.89 $321.87
    E1-E6 Service Dress White $147.53 $132.88
    E7-E9 Service Khaki $317.64 $313.59
    E7-E9 Summer White $282.17 $282.17
    E7-E9 Service Dress Blue $562.28 $550.87
    E7-E9 Service Dress White $422.77 $422.51
    E7-E9 Prescribable Outerwear $230.39 $224.81
    WO-O10 Service Khaki $321.22 $317.17
    WO-O10 Summer White $302.64 $302.64
    WO-O10 Service Dress Blue $550.79 $539.38
    WO-O10 Service Dress White $469.84 $469.58
    O4-O10 Dinner Dress Blue Jacket $465.55 $465.68
    O4-O10 Dinner Dress White Jacket $483.10 $428.27
    WO-O10 Prescribable Outerwear $424.11 $424.11
[See page 17.]
    General Kelly. [Answer in original form retained in committee 
files.]   [See page 17.]
    General Rocco. All items have a useful life, and some are longer 
than others. For example, all Marines are required to own the $100 All 
Weather Coat, but the coat generally lasts for a Marine's whole career 
and is rarely ever replaced. The same can be said for many of the items 
Marines are required to maintain (e.g. blue dress coat, service coat, 
duffel bag . . .). New officers incur a $600(+) upfront cost to 
purchase the officer sword and accessories; it too is considered a one-
time purchase item. Some items wear out more quickly than others (e.g. 
footwear, socks, undershirts) and have to be replaced more frequently. 
There is really no way to determine how much a Marine is spending 
annually on uniforms, as Marines replace their uniforms as needed based 
on their individual wear patterns.
    An annual clothing replacement allowance (CRA) is paid to Active 
Duty enlisted Marines, based on the item cost divided by the useful 
life of each required item. Officers receive a one-time cash payment of 
$400 upon commissioning for the purchase of uniforms. Warrant officers 
do not receive a CRA once promoted to the officer ranks, but do receive 
the $400 upon commissioning.
    Some items are available commercially and via the Defense Logistics 
Agency (DLA). The DLA price will always be less expensive. Officers, 
for a lot of items, have the option to buy the DLA item, but many 
purchase their uniforms as packages from commercial entities, and the 
price is often higher. Many officers and SNCOs prefer the more 
expensive/higher quality commercial item, but for the purposes of this 
comparison, when possible, the DLA prices were used.
    Marine Corps Warrant Officers (WO-CWO5) are considered company 
grade officers.
    Because they came up through the enlisted ranks, most only replace 
their enlisted uniforms with officer uniform items when there is a 
design difference (size of the ornamental stripe on the slacks, the 
braid on the frame cap, pockets on the male service coat, lack of red 
piping on the blue dress coats, necktie clasp . . .). So even though 
their cost comparison is the same as the company grade officer, while 
they had some up front expense with the transition to warrant officer, 
they in fact did not have to purchase a whole new wardrobe they became 
officers.
    The Marine Corps is currently in the process of transitioning to 
the more expensive Female Blue Dress Coat (FDBC), but won't complete 
the transition until October 2022. For this comparison, the more 
expensive FDBC was used. The cost of the new enlisted FDBC/white belt/
waistplate is $180.94. The cost of the old enlisted Women's blue dress 
coat and white shirt was $156.40. The cost of the new officer FDBC 
(with the white strip collar) is $384, while the old coat/white shirt/
red necktab was $346.50.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[See page 17.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           December 10, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. Does your service research how the traits you look for 
in recruits and retention correlate with success throughout a service 
member's military career? Please share any such research. Have you 
tested whether other traits correlate with success?
    General Seamands. Our personnel research organization 
longitudinally tracks recruits up to their first 10 years of service to 
examine how well their cognitive, noncognitive (e.g., motivation), and 
physical attributes are related to success at multiple points in a 
career. In addition to looking at retention, they examine how these 
attributes relate to training success, performance in the first term of 
service (enlisted) or the active duty service obligation (officers), 
and performance as Noncommissioned Officers or Field Grade Officers. 
The research has found that attributes in each of the categories are 
statistically related to later success and, when considered in 
combination, are even better indicators of success. The researchers 
continually investigate attributes that may contribute to success and 
integrate the promising attributes into the existing assessments. With 
the fielding of the Integrated Pay and Personnel System-Army (IPPS-A), 
we will capture data to include a list of 25+ knowledge, skills, and 
behaviors and be able to track throughout the Soldier's career to 
facilitate research.
    Ms. Speier. Do your services have research groups equivalent to the 
Marine Center for Advanced Operational Culture Learning? What projects 
have they completed within the last three years? What are they 
currently working on?
    General Seamands. The Army has an organization with a similar, 
though not exact, mission to that of the Marine Center for Advance 
Operational Culture Learning. The Cultural and Areas Studies Office 
(CASO) as part of the Army Command and General Staff College (CGSC), in 
conjunction with partner organizations, provides a mechanism to engage 
all CGSC constituencies concerning the importance of cultural, 
political, economic, and social factors in shaping the operational 
environment.
    CASO has worked on several projects, with various diverse academic 
panels, over the last three years including:
    25 Sep 2019--``Cultural and `Soft Power' Influences of China, 
Russia, and France in Africa.''
    21 May 2019--``Leveraging Culture and Language in `Influence' 
Operations.''
    28 March 2019--``Cultural and `Soft Power' Influences of China and 
Russi+a in the Americas.''
    14 January 2019--``Cultural and `Soft Power' Influences of Iran and 
Russia in Syria.''
    30 April 2018--``Cultural Perspectives, Geopolitics, and Energy 
Security of the Koreas.''
    12 September 2017--``Cultural and Regional Implications of Russian 
Power Projection in the `Grey Zone.''
    CASO published an anthology of essays by panelists, speakers, and 
members of the CGSC faculty on ``Cultural Perspectives, Geopolitics & 
Energy Security of Eurasia: Is the Next Global Conflict Imminent? (Fort 
Leavenworth, KS: CGSC Press, 2017).
    CASO is currently working jointly with the National Intelligence 
Council and The American Enterprise Institute on a presentation, 
``Cultural Dynamics of U.S.- Iran Relations: Is Conflict Imminent?'' 
scheduled for Thursday, 23 January, 2020, 1-3 p.m. (CST).
    CASO is completing the second, expanded volume of the anthology 
with leading scholars from CGSC and across the nation in support of 
U.S. National Security and Defense Strategy to be published this year. 
It focuses on ``Cultural Perspectives, Geopolitics & Energy Security: 
Competition for Influence in Eurasia, the Americas and Africa,'' adding 
two more strategically important regions and authors/scholars across 
the nation with related areas of expertise.
    Ms. Speier. Please provide the gender and ethnicity of recruiters 
across the services and in any higher DOD headquarters activity that is 
related to recruiting activities.
    General Seamands. The breakout by gender and ethnicity for Army 
active and Army reserve recruiters is as follows:

------------------------------------------------------------------------
                                 Female          Male          Total
------------------------------------------------------------------------
Asian                        87             516            603
------------------------------------------------------------------------
Black                        594            1866           2460
------------------------------------------------------------------------
Caucasian                    304            5427           5731
------------------------------------------------------------------------
Hispanic                     205            1746           1951
------------------------------------------------------------------------
Other                        35             155            190
------------------------------------------------------------------------
Total                        1225           9710           10935
------------------------------------------------------------------------

    Ms. Speier. Please provide the average cost of female uniforms 
compared to male uniforms.
    General Seamands. New enlisted personnel are provided an initial 
issue of Army personal clothing items, commonly referred to as the 
Clothing Bag. In fiscal year 2020, the female clothing bag cost is 
$1,573.24; the male clothing bag cost is $1,606.61. The difference in 
cost is because male Soldiers are issued undergarments and female 
Soldiers receive a $291.75 cash allowance to purchase undergarments 
that best suit their individual needs, a handbag, and athletic socks.
    The average cost of the Female Army Combat Uniform (ACU) is $97.54. 
The unisex ACU is $98.07. The Female Army Service Uniform (ASU) is 
$432.88 compared to the male uniform at $439.72. The Female Army 
Physical Fitness Uniform (APFU) is $112.61 and the unisex APFU is 
$113.13.
    Ms. Speier. Does your service research how the traits you look for 
in recruits and retention correlate with success throughout a service 
member's military career? Please share any such research. Have you 
tested whether other traits correlate with success?
    Admiral Nowell. Yes, Navy researches identifiable personnel traits 
which are correlated with positive outcomes such as completing 
enlistment contracts, reenlistments, and future career progression. 
From a recruiting perspective, Navy leverages the Armed Services 
Vocational Aptitude Battery (ASVAB), physical fitness test scores, and 
types of waivers granted (medical or conduct related) as some of the 
preliminary indicators of completing an initial enlistment. Navy 
employs the Rating Identification Engine (RIDE) program correlating 
individual's ASVAB scores to specific Navy jobs for which the applicant 
has aptitude. Navy also uses Job Opportunities In the Navy (JOIN), a 
non-cognitive and culturally fair assessment of each applicant's 
interest in specific Navy career fields. RIDE and JOIN align the 
aptitudes and interests of prospective Sailors and research shows JOIN 
scores are significantly related to key career outcomes such as lower 
first term attrition, higher reenlistments, and increased likelihood of 
promotion to E-6 after 9 years. Army is launching a 3-year pilot to 
assess the effectiveness of Tailored Adaptive Personality Assessment 
System (TAPAS) for operational use. TAPAS is a non-cognitive 
assessment, and preliminary research suggests that TAPAS may provide 
small but consistent improvements in the ability to predict future 
attrition. Navy is collecting and sharing information with Army, and 
TAPAS may potentially augment ASVAB, RIDE, and JOIN in the future as 
tools for selection and classification of military recruits. Navy has 7 
studies from the Center for Naval Analyses (CNA) focusing on internal 
Navy factors which can impact reenlistment. It is important to note 
that there are external factors beyond Navy's control, which can also 
influence an individual's reenlistment decision. These include overall 
unemployment or world events like the 9/11 attacks. Additionally, there 
are 32 CNA studies which focus only on external factors or a 
combination of internal and external factors. Navy continuously 
examines results of personnel policies, including promotions and 
advancements, to identify positive trends and commonalities to assist 
Sailors in achieving success in their career and to avoid any 
unintended or undue bias in Navy's policies and processes including 
recruitment, retention, or promotion with regard to gender, racial, or 
ethnic diversity.
    Ms. Speier. Do your services have research groups equivalent to the 
Marine Center for Advanced Operational Culture Learning? What projects 
have they completed within the last three years? What are they 
currently working on?
    Admiral Nowell. The Center for Language, Regional Expertise, and 
Culture (CLREC) in Pensacola, Florida is Navy's equivalent for 
developing and providing operationally relevant education and training 
resources for Fleet use. Over the last three years, CLREC has created a 
number of informative cultural training products formatted as 
electronic courses, PowerPoint presentations, and narrated videos with 
learning objectives aligned to Department of Defense and Navy doctrine 
and instructions. To ensure accuracy, content is developed under 
contract with academic institutions. CLREC is expanding access to its 
products via Navy's Global Deployer Application for mobile devices. 
Sailors completing culture training via this application are awarded 
credit in Navy training databases, and CLREC provides language-learning 
material to individuals and resources language classes for Sailors at 
fleet concentration centers in Japan, Korea, Italy, Spain, and Bahrain. 
In 2020, Arabic and French programs will be established in Djibouti. 
Additionally, CLREC has access to other research resources, such as the 
Center for Naval Analyses, which it contracted to conduct a study, 
scheduled to publish in 2020, of Russian-Chinese Maritime Cooperation 
in the Indo-Pacific Area of Operations. By optimizing access to culture 
material and language learning, CLREC ensures Navy has access to 
resources required for mission support.
    Ms. Speier. Please provide the gender and ethnicity of recruiters 
across the services and in any higher DOD headquarters activity that is 
related to recruiting activities
    Admiral Nowell. The table below displays the fiscal year 2019 
demographic makeup of Navy Recruiting Command by gender and ethnicity.
    Diversity FY19 EnlistedAC (%)RC (%) African-American:21.527.2 
Asian-Pacific Islander:10.012.4 Hispanic:18.319.8 Female:24.434.3 
OfficerAC (%)RC (%) African-American:10.07.8 Asian-Pacific 
Islander:15.212.5 Hispanic:12.07.7 Female:25.923.9
    Ms. Speier. Please provide the average cost of female uniforms 
compared to male uniforms.
    Admiral Nowell. On the average, female specific mandatory uniforms 
are less expensive than equivalent mandatory male uniforms. The 
exception is the female O-4 through O-10 Dinner Dress Jacket Uniform, 
which is more than the equivalent male uniform.
    Uniform Ensemble--Male Female Uniform Ensembles Cost
    E1-E6 Service Uniform $176.23 $158.38
    E1-E6 Service Dress Blue $330.89 $321.87
    E1-E6 Service Dress White $147.53 $132.88
    E7-E9 Service Khaki $317.64 $313.59
    E7-E9 Summer White $282.17 $282.17
    E7-E9 Service Dress Blue $562.28 $550.87
    E7-E9 Service Dress White $422.77 $422.51
    E7-E9 Prescribable Outerwear $230.39 $224.81
    WO-O10 Service Khaki $321.22 $317.17
    WO-O10 Summer White $302.64 $302.64
    WO-O10 Service Dress Blue $550.79 $539.38
    WO-O10 Service Dress White $469.84 $469.58 O4
    O4-O10 Dinner Dress Blue Jacket $465.55 $465.68
    O4-O10 Dinner Dress White Jacket $483.10 $428.27
    WO-O10 Prescribable Outerwear $424.11 $424.11
    Ms. Speier. Does your service research how the traits you look for 
in recruits and retention correlate with success throughout a service 
member's military career? Please share any such research. Have you 
tested whether other traits correlate with success?
    General Kelly. Although the Air Force does not research how the 
traits we look for in recruits and retention correlate with success 
throughout a service member's military career, we successfully 
accomplish personality trait research tied to training outcomes (e.g., 
attrition, course and leadership grades, order of merit). The Air Force 
uses the DOD-administered Tailored Adaptive Personality Assessment 
System (TAPAS) v5 for enlisted accessions, and has a second test in 
development, the Self-Description Inventory (SDI; see DTIC ADA364039), 
that is included in the Air Force Officer Qualifying Test (AFOQT). The 
SDI will be validated against Air Force officer job performance as part 
of the AFOQT validation to be completed by 2023. Both tests utilize the 
5-factor model of personality as their base (Openness to Experience, 
Contentiousness, Extroversion, Agreeableness, and Neuroticism).
    Personality trait research includes the following:
    PERFORMANCE OUTCOMES Barron, Carretta, & Bonto-Kane (2016) found 
pre-accession assessment of personality a significant predictor of 
Officer Performance Reports rank-order of officers (stratification) 
(see DTIC AD1024062). This was followed-up with a report on manned and 
unmanned aircraft pilots in 2016 with similar findings (see DTIC 
ADA631777).
    RETENTION/ATTRITION Maury, Stone, Carretta (2010) found weak but 
significant effects of pre-accession assessment of personality on re-
enlistment decisions at 4 and 8 years, with current biodata measures 
(marital status, number of dependents and enlisted grade) showing 
stronger relationships than personality (see DTIC ADA520666).
    TRAINING OUTCOMES Rose, Manley & Weissmuller (2013) demonstrated 
that TAPAS facets, along with Armed Forces Vocational Aptitude Battery 
(ASVAB) and physical ability, predicted completion of training for 
Special Warfare trainees (link: TAPAS is currently included in the 
selection model for SW enlisted career fields (see DTIC AD1007586). A 
2014 cross-service study demonstrated that facets of the SDI had small 
but significant effects on Remotely Piloted Aircraft training 
performance and academic grades (see DTIC ADA613545), An unpublished 
AFPC study (Barron et al, 2014) demonstrated that SDI facets had 
significant effects on leadership grades and order of merit in samples 
from Officer Training School and the US Air Force Academy. A 2016 study 
(Manley, Schwartz, & Weissmller, 2016) demonstrated that several SDI 
facets significantly predicted 17D Cyber officer technical training 
performance and attrition (see DTIC AD1007590) We have not tested other 
traits; however, we abide by DOD's successful first term enlisted 
quality benchmark indicators for accessions. The qualitative 
distribution benchmarks for accessions within a fiscal year are 60 
percent Armed Forces Qualification Test (AFQT) Category I-IIIA and 90 
percent high school diploma graduates.
    Ms. Speier. Do your services have research groups equivalent to the 
Marine Center for Advanced Operational Culture Learning? What projects 
have they completed within the last three years? What are they 
currently working on?
    General Kelly. (1) Yes, the Air Force has the Air Force Culture and 
Language Center (AFCLC) at Air University, located at Maxwell Air Force 
Base, Alabama. In addition to the AFCLC, the Air Force Expeditionary 
Center at Joint Base McGuire-Dix-Lakehurst in New Jersey and the Air 
Force Special Operations University at Hurlburt Field, Florida, conduct 
courses in Cross-Cultural Communication.
    (2) The Air Force Culture and Language Center has several programs 
enabling the Air Force to further cultural competence, global 
perspective, and an acumen for diversity as it applies to operations.
    <bullet>  The Language Enabled Airman Program (LEAP) has grown in 
the past three years, from approximately 2,000 scholars to 3,253. 
Current inventory consists of 95 languages, with overseas immersions 
conducted in 86 countries. In 2019, the University of Maryland 
conducted an Air Force-sponsored research effort to determine overall 
effectiveness of LEAP and determined that LEAP is achieving comparable 
results with many Department of Defense and civilian full-time resident 
language programs with under one-third the contact time. Lastly, 736 
special experience identifiers (SEIs) have been awarded through the 
program.
    <bullet>  The Foreign Area Officer (FAO) Pipeline Qualification 
Training program managed in-region and strategic engagement training 
for 198 FAOs. It provided sustainment for 121 FAOs through its on-line 
platform and planned 233 overseas sustainment immersions.
    <bullet>  In addressing education needs, the Center faculty has 
grown from four to seven PhD faculty members. It provided undergraduate 
education through the conduct of two associate-level courses as part of 
the Community College of the Air Force, with 948 completions. At the 
graduate level, the faculty teaches core and elective courses at Air 
War College and Air Command & Staff College. The Center prepares 
general officers for key leader engagements with senior political, 
military, and tribal leaders overseas.
    <bullet>  The Center also produces Expeditionary Culture Field 
Guides; over the past 3 years, AFCLC has produced 16 guides for a total 
of 60 since 2006. It developed a mobile phone app which was recognized 
in an August 2018 edition of the Wall Street Journal as the #1 
selection of ``The 6 Indispensable Apps for Business Travelers.''
    <bullet>  The Center teaches cross-cultural communication twice a 
year for UN Military Observer Missions.
    (3) Presently, the Language Enabled Airman Program (LEAP) is 
building cohorts for an experiment in developing skills in African 
languages using Airmen from LEAP as well as Reserve, Air National 
Guard, and active duty Airmen who are not part of LEAP. Part of this 
experiment will be testing the online learning platform as a 
contingency response model in addition to deliberate development. In 
education efforts, the Center will be expanding general officer 
immersions for the Central Command, Africa Command, and Pacific Command 
areas of responsibility. The Center will continue teaching leadership 
for cultural property protection through exercises and developing 
curriculum for intelligence officer qualifications. They are 
investigating development of a monthly podcast on cultural topics, and 
have developed a new pre-assignment course for Air Force Office of 
Special Investigations agents. Upcoming research projects include the 
topics of cultural property protection, working with tribal cultures, 
interagency cooperation, corruption in cultural context, gender in Arab 
Muslim communities, radicalism and extremism, communication for 
leaders, and colonial powers in East Asia.
    Ms. Speier. Please provide the gender and ethnicity of recruiters 
across the services and in any higher DOD headquarters activity that is 
related to recruiting activities.
    General Kelly. [Answer in original form retained in committee 
files.]
    Ms. Speier. Please provide the average cost of female uniforms 
compared to male uniforms.
    General Kelly. [Answer in original form retained in committee 
files.]
    Ms. Speier. Does your service research how the traits you look for 
in recruits and retention correlate with success throughout a service 
member's military career? Please share any such research. Have you 
tested whether other traits correlate with success?
    General Rocco. Yes, the service is conducting ongoing research to 
understand how the various recruitment traits (Armed Services 
Vocational Aptitude Battery Scores, Initial Strength Tests, educational 
levels etc.) lead to the successful completion of various career 
milestones. Beginning in the summer of 2018, the Marine Corps 
implemented the Tailored Adaptive Personality Assessment System (TAPAS) 
for enlisted applicants. TAPAS is a non-cognitive personality 
assessment that tests various personality traits/facets. The Marine 
Corps expects to see a correlation between personality facet, cognitive 
metrics, and physical fitness capabilities that help to better 
understand a Marine's success at the various milestones throughout the 
Human Resources Development Process (HRDP). Our research into this area 
is relatively new and still in progress but should yield more formal 
results by approximately FY23. All Marine Corps efforts in this area 
are synchronized with similar Secretary of Defense Accession Policy 
initiatives.
    Ms. Speier. What projects is the Marine Center for Advanced 
Operational Culture Learning currently working on? What projects has it 
recently completed? How have its staffing levels changed since the 
release of the report on gender issues in the Marines? Why have those 
levels changed?
    General Rocco. CAOCL's Organization and Role The Center for 
Advanced Operational Culture Learning (CAOCL) was created to serve as 
the Marine Corps' central organization for language, regional 
expertise, and culture (LREC) training, education, and 
institutionalization. In doing so, CAOCL has equipped Marines to 
understand the motivations and behaviors of adversaries, partners, and 
noncombatant populations, enabling Marines to operate effectively in 
culturally complex environments. CAOCL has achieved this mission 
synergistically through five core functions, including mission 
essential LREC training, distance and resident Professional Military 
Education (PME), support to operating/deployed units, 
institutionalization of LREC capability, and a social science research 
capability. CAOCL's small, multidisciplinary team of social scientists, 
the Translational Research Group (TRG), was established to support 
CAOCL's LREC mission and provide research and advising on topics of 
interest to the Marine Corps.

CAOCL's Past and Present Projects

    --  CAOCL continuously tailors pre-deployment training for COCOMs, 
Task Force Southwest (Afghanistan), and multiple deployed forces. 
CAOCL's latest courses include the Cognitive Dimension of Key 
Adversaries and LREC in Planning. These courses increase Marines' 
lethality and survivability by understanding how culture influences the 
adversary's intent, motivation, and ethical constraints in developing 
and employing future warfighting tactics and technologies.
    --  To complement training, CAOCL developed an accredited total 
force, career-long regional and culture distance education program 
updated on a two-year cycle to provide a foundation of knowledge for 
Marines to incorporate LREC into planning, make informed decisions in 
foreign environments, and understand second and third order 
consequences of operations. At present, the training audience is 56,000 
Marines. Additionally, portions of CAOCL's Regional and Culture Studies 
are utilized by both the U.S. Army John F. Kennedy Special Warfare 
Center and School and the Defense Institute of Security Cooperation 
Studies.
    --  CAOCL, responding to the need for managing various biases 
associated with an increasingly diverse force and complex operations, 
developed courses devoted to instilling cross-cultural competence and 
identifying and mitigating biases for the individual Marine. These 
courses improved Marines' self-awareness and provided tools to improve 
objectivity through education on perception checking, attributional 
complexity, and cultural perspective taking. Currently, these courses 
are taught throughout residence formal schools. These periods of 
instruction have been well-received throughout the Services and have 
formally been incorporated into the Marine Corps' Uniformed Victim 
Advocate Program.
    --  In mid-2017, after misconduct was discovered in social media 
groups such as Marines United, Manpower and Reserve Affairs (M&RA) 
requested that CAOCL's research group conduct research on Marine 
perspectives on the Marine Corps' culture. The intent of the project 
was to inform discussions about policy and programs and shape any 
future quantitative data gathering efforts.
    --  CAOCL's research group has reduced its original analytic plans 
for the MCOCR Project. Thus far, the research group has produced two 
additional reports from the project, one on concepts of equality and 
one on pregnancy loss. The group currently is focused on a small number 
of additional analyses from MCOCR on issues selected in consultation 
with Marine Corps leadership. The group also is working on efforts 
related to CAOCL's LREC mission.
    --  Recently completed research efforts by CAOCL's research group 
include assessing the value of culture-related training and education 
with the 7th Marine Regiment, a professional military education project 
drawing lessons learned from other professional education sectors, and 
research on the role of the military in the response to the Ebola virus 
disease outbreak in West Africa in 2014-2015.
    --  In May 2019 the MROC decision of divestment of CAOCL resulted 
in an asset of $32.2M over the POM-21 FYDP. This divestment allows the 
Marine Corps to invest in force modernization in line with the National 
Strategy/Defense Planning Guidance.
    --  In preparation for divestment in June 2020, CAOCL's research 
group has not taken on any new projects; the training team has not 
scheduled events beyond April 2020; and the transition of the distance 
education Regional and Culture Studies Program is under development. 
Archiving and preservation of material and lessons learned over 14 
years is underway.
CAOCL's Staffing Level Changes
    -- Since the Marine Corps' decision to divest CAOCL, the Center's 
contractor-heavy staff has steadily declined in anticipation of its 
June 2020 closing. To date, one of eight government employees has 
relocated and not been backfilled, while the military staffing has 
remained steady to facilitate divestment activities through the summer. 
CAOCL's current efforts include support requirements not exceeding 
summer 2020.
Way ahead
    --  Capabilities provided by CAOCL will continue to be available to 
the Marine Corps. Marine forces will be able to access these 
capabilities either through their transfer to the developing Region and 
Culture Studies center within MCU (distance and resident PME) or 
through a soon to be awarded IDIQ contract (training and research) 
which users will self-fund.
    Ms. Speier. Question for: Lieutenant General Michael Rocco 12) 
Please provide the gender and ethnicity of recruiters across the 
services and in any higher DOD headquarters activity that is related to 
recruiting activities
    General Rocco. [Answer in original form in committee files.]
    Ms. Speier. Please provide the average cost of female uniforms 
compared to male uniforms.
    General Rocco. [See table next page.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    .epsMs. Speier. Mr. Garrison, I understand you wish to clarify some 
details regarding the timeline of your deployments while serving as an 
Army officer. Would you be able to provide that clarification to the 
subcommittee?
    Mr. Garrison. Chairwoman, thank you for the opportunity for this 
clarification. In my testimony, both oral and written, I made the 
following statement: ``By February 2003, I was in the Anbar Province of 
Iraq for my first of two deployments.'' To clarify, in February 2003, 
my unit, the 3d Armored Cavalry Regiment stationed out of Fort Carson, 
CO, received its deployment orders. In April 2003, we were physically 
in theater staging in Kuwait, and in May 2003 we entered the Anbar 
Province for the remainder of our 11.5-month deployment. My testimony 
should have read that I was on my way to the Anbar Province at that 
time rather than already being in the province. I did not want to lead 
one to believe I was physically in country during that month. It was a 
mistake due to maintaining multiple drafts of my testimony. I apologize 
for the error.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. According to the September 2019 Active Duty Master File, 
only 12% of enlisted personnel or warrant officers in SOCOM are black 
or African American, despite blacks and African Americans comprising 
20% of all enlisted personnel. What is your service doing to ensure 
that our elite units represent not only the diversity of the nation, 
but also the diversity of our enlisted personnel?
    General Seamands. Any Applicant or Soldier who can meet the 
standards of an officer or enlisted specialty is afforded the 
opportunity to serve in that specialty, regardless of gender or race. 
Army accessioning agencies specifically educate women, minorities, and 
other demographic groups on the opportunities the Army provides to 
ensure a diverse and healthy all volunteer force. Our elite units 
represent the diversity of the Nation. The United States Army recruits 
from the Qualified Military Available (Age 17-24) population; of that 
population 10.3 percent are African American. Accordingly, 12 percent 
African American enlisted personnel or warrant officers in USASOC 
exceeds the diversity of the nation. Because of the nature of the 
Special Operations missions, we look for diversity or thought, 
experience, and background. Within the Army Special Operations 
community we have increased outreach through the Special Operations 
recruiting and our marketing campaign of ``What's Your Warrior?'' is 
aimed at diversity in all fields, including our Special Operations 
Forces.
    Mr. Brown. According to the September 2019 Active Duty Master File, 
only 2.3% of military aviators are black or African American, despite 
blacks and African Americans comprising 20% of all enlisted personnel 
and 8.3% of our officer corps. This trend worsens when we examine 
fighter and bomber career paths, with blacks and African Americans 
comprising only 1.5% of our elite pilots. What is your service doing to 
ensure that our military ranks represent not only the diversity of the 
nation, but also the diversity of our enlisted personnel and officer 
corps?
    General Seamands. The Army Aviation Center of Excellence does not 
have a targeted diversity recruiting effort for African American (AA)/
Blacks, but does have a Branch Awareness Program that markets aviation 
career fields to prospective applicants, regardless of race, gender, 
ethnicity, etc. As part of its outreach efforts, Aviation Branch 
actively recruits minorities and females during airshows, unit visits, 
campus visits, and other venues. Minority and female pilots and NCOs 
frequently work in Army aviation static-displays (as role models) with 
the most recent being the 2019 EAA AirVenture and Helicopter 
Association International (HAI) Heli-Expo air shows. Aviation Branch 
also partners with the US Army Recruiting Command (USAREC), US Army 
Cadet Command, and the US Army Military Academy during outreach events 
to provide information and career opportunity information to 
prospective candidates.
    From data received in recent ROTC and USMA branching processes, AA/
Black cadets selected in aviation branch increased from 1% to 4% and 2% 
to 6% respectively over the last 3 years. In comparing the 2019 
Aviation Warrant Officer Selection Board process to the 2015 process, 
the number of AA/Black applicants more than doubled (2015--29 vs. 
2019--64), while the percentage of AA/Black applicants increased from 
5.6% to 7.1%. While the numbers and percentages of AA/Black officer and 
warrant officers lag behind overall accessions and commissioning rates, 
recent data indicates the Army is trending in the right direction for 
AA/Black warrant officer aviators. The Army acknowledges it has room 
for improvement with AA/Black aviation officers and continues to work 
to ensure a diverse board makeup as part of an equitable and inclusive 
aviator selection process.
    Finally, the Army is updating its diversity, equity, and inclusion 
strategic plan which will place greater emphasis on benchmarking and 
monitoring Army demographics to provide Army senior leaders outreach 
proposals aimed at enhancing diversity recruiting across the Total 
Force.
    Mr. Brown. According to the September 2019 Active Duty Master File, 
only 12% of enlisted personnel or warrant officers in SOCOM are black 
or African American, despite blacks and African Americans comprising 
20% of all enlisted personnel. What is your service doing to ensure 
that our elite units represent not only the diversity of the nation, 
but also the diversity of our enlisted personnel?
    Admiral Nowell. Navy continues to build a more inclusive culture 
and diverse workforce across the Fleet and recognizes the importance of 
inclusion and diversity across all elite units. To recruit the highest-
quality talent, Navy's diverse workforce invests in marketing and 
outreach strategies that appeal to all demographics of the U.S. 
population. Navy's diverse recruiting force begins with its recruiters 
and accessions, which are more demographically diverse than ever 
before.
    Navy Recruiting Command (NRC) oversees numerous outreach programs 
to target diverse individuals to serve within special operations rates. 
Warrior Challenge (WC) is the primary program to target individuals who 
are qualified and interested in the challenge of serving in special 
operations rates. The WC Mentor Program is a key part of Navy 
recruiting efforts to identify and develop those unique people who are 
in high demand, to serve as technical specialists and dependable 
teammates.
    Additionally, our focus encompasses multiple programs to support 
demographic measures of race, gender, and ethnicity by using the 
following outreach programs:
    Faces of the Fleet: Documentary series highlighting Sailors' 
stories of their service, family, and life. Of the 15 episodes 
currently live, there are 11 that highlight diverse Sailors.
    Navy Promotional Days: Promotes awareness/active recruitment 
efforts at Minority Serving Institutions (Historically Black Colleges, 
Hispanic-serving institutions, Tribal Colleges, Women Colleges) to 
build strategic networks within diverse and under-represented 
communities.
    Affinity Group Partnerships: Partnership with affinity 
organizations that provide direct access to high-achieving prospects 
and key influencers with multiple touchpoints year-round.
    Senior Minority Assistance to Recruiting Program, or SEMINAR: The 
SEMINAR program was established to assist the Navy in its effort to 
recruit more African American, Hispanic, and Asian/Pacific Islander 
applicants and to enhance Navy's image in these communities. SEMINAR 
temporarily returns highly qualified African American, Hispanic, and 
Asian/Pacific Islander officers and senior enlisted personnel to their 
home communities for 20 days to meet with local influential community 
members and to discuss the vast educational, career, and advancement 
opportunities the Navy offers.
    Education Orientation Visits: An actively-engaged, compactly-
organized, two-day in-port tour of various Navy commands and 
installations to key Center-of-Influence (COI) civilians with the 
overarching purpose of increasing their understanding of life in 
today's Navy.
    As part of the Navy's Leader Development Framework, the Naval 
Special Warfare Commander annually briefs Navy leadership on his 
community specific efforts to demonstrate progress in achieving a 
culture of excellence that espouses our Core Values of Honor, Courage, 
and Commitment. The NSW Commander emphasizes developing a common 
understanding and a sense of identity and belonging in the special 
operations community through pre-leadership milestone courses, deck 
plate leadership engagements and continuing leadership development 
efforts.
    The Navy remains committed to recruiting a force that will be 
representative of the general population both at accession and in the 
future. Navy's inclusive culture allows our leaders to capitalize on 
Sailors' diversity, leveraging different perspectives and ideas to 
achieve maximum possible performance in our elite units.
    Mr. Brown. According to the September 2019 Active Duty Master File, 
only 2.3% of military aviators are black or African American, despite 
blacks and African Americans comprising 20% of all enlisted personnel 
and 8.3% of our officer corps. This trend worsens when we examine 
fighter and bomber career paths, with blacks and African Americans 
comprising only 1.5% of our elite pilots. What is your service doing to 
ensure that our military ranks represent not only the diversity of the 
nation, but also the diversity of our enlisted personnel and officer 
corps?
    Admiral Nowell. Navy continues to build a more inclusive culture 
and diverse workforce across the Fleet and recognizes the importance of 
inclusion and diversity across all TYPE/MODEL/SERIES platforms. 
Commander Naval Air Forces (CNAF) outreach program supports multiple 
demographic affinity groups to address underrepresented groups and has 
partnerships with the Organization of Black Aerospace Professionals, 
and many others across the country to inspire our youth to FLY NAVY. 
Further, as a CNAF initiative, we have included implicit bias training 
into every major symposium and commander training event. We believe 
change starts from within and are actively pursuing cultural progress 
through the CNO's Culture of Excellence initiative, a Navy-wide 
campaign dedicated to strengthening our mission effectiveness by 
instilling toughness, trust, and connectedness in Sailors to achieve 
warfighting excellence. Our focus encompasses a much broader definition 
of diversity beyond the traditional demographic measures of race, 
gender, and ethnicity. Sailors bring their own experiences and 
personalities to the Fleet and we seek out these future Sailors with 
diverse backgrounds, critical thinking skills, and mental agility. By 
showing young men and women from across the country what Navy has to 
offer, Navy attracts Sailors with diverse experiences, thoughts and 
perspectives. A few examples are: Faces of the Fleet: Documentary 
series highlighting Sailors' stories of their service, family, and 
life. Of the 15 episodes currently live, there are 11 that highlight 
diverse Sailors. Navy Promotional Days: Promote awareness/active 
recruitment efforts at Minority Serving Institutions (Historically 
Black Colleges, Hispanic-serving institutions, Tribal Colleges, Women 
Colleges) to build strategic networks within diverse and under-
represented communities. Senior Minority Assistance to Recruiting 
Program (SEMINAR): Navy uses volunteers from the officer and enlisted 
community to participate in SEMINAR--targeted towards African American, 
Hispanic, and Asian/Pacific Islander, but participation is open to 
other minorities who volunteer in pay grades E-6 through O-6. 
Additionally, we partner with influencers in African American 
communities, work with affinity groups who prioritize mentoring, 
coaching and sponsorship, and publicize the accomplishments of African 
American exemplars both within and outside the Navy. This provides Navy 
direct access to high-achieving prospects and key influencers with 
multiple touchpoints year-round. Today, Navy's inclusive culture allows 
our leaders to capitalize on Sailors' diversity, leveraging different 
perspectives and ideas to achieve maximum possible performance. By 
including all Sailors' voices and ideas Navy can increase its 
lethality, readiness and ability to solve problems in innovative and 
unique ways, harnessing the exponential creative power of diversity.
    Mr. Brown. According to the September 2019 Active Duty Master File, 
only 12% of enlisted personnel or warrant officers in SOCOM are black 
or African American, despite blacks and African Americans comprising 
20% of all enlisted personnel. What is your service doing to ensure 
that our elite units represent not only the diversity of the nation, 
but also the diversity of our enlisted personnel?
    General Kelly. Air Force Special Warfare (AFSPECWAR) recruiters are 
entrenched in various cities with multiple ethnic backgrounds and 
economic statuses. The special operations forces component within 
AFSPECWAR is taking a holistic approach to assess and select personnel 
in order to maximize the recruiting and talent pool available for 
critically manned career fields. The 330th Recruiting Squadron (RS) 
recently filmed commercials featuring minority (to include female) SW 
Airmen. Additionally, several of our largest recruiting engagements are 
in highly diverse locations (e.g. Miami Air Show during ``Urban Week'') 
and have hosted multiple Athlete Leadership Bootcamps with HBCUs 
(Historically Black College/University) athletic programs, Surfer-Girl 
Pro and at South-Texas Air Shows to Target Hispanic populations. 
Additionally the 330th RS successfully baselined entrance requirements 
to give all applicants, regardless of prior aquatic comfort/access to 
pools an opportunity to succeed. The AFSPECWAR Development program is 
also designed to train candidates during the pre-accession process to 
help them prepare, prior to entering the grueling pipeline.
    Mr. Brown. According to the September 2019 Active Duty Master File, 
only 2.3% of military aviators are black or African American, despite 
blacks and African Americans comprising 20% of all enlisted personnel 
and 8.3% of our officer corps. This trend worsens when we examine 
fighter and bomber career paths, with blacks and African Americans 
comprising only 1.5% of our elite pilots. What is your service doing to 
ensure that our military ranks represent not only the diversity of the 
nation, but also the diversity of our enlisted personnel and officer 
corps?
    General Kelly. The Chief of Staff of the Air Force has declared 
diversity and inclusion a joint warfighting imperative. The Chief 
established and chairs a monthly diversity council to provide personal 
oversight over this priority challenge. The Air Force has enacted the 
Chief's-directed Rated Diversity Improvement effort with a targeted 
forcus on increasing demographic representation of minorities and women 
in our rated community through four lines of effort: 1) Pre-Accessions; 
2) Accessions; 3) Initial Training: and 4) Rated Career Retention. For 
example, the service established the Air Force Recruiting Service 
Detachment 1 to directly support pre-accessions and accessions lines of 
effort and act as the tactical execution arm. Through constant and 
recurring engagements as well as strategic partnerships, the Air Force 
is making strides towards increasing the diverse applicant pool for 
rated (e.g. pilots, navigators) officers.
    Mr. Brown. According to the September 2019 Active Duty Master File, 
only 12% of enlisted personnel or warrant officers in SOCOM are black 
or African American, despite blacks and African Americans comprising 
20% of all enlisted personnel. What is your service doing to ensure 
that our elite units represent not only the diversity of the nation, 
but also the diversity of our enlisted personnel?
    General Rocco. The Marine Corps is a standards-based organization 
and seeks to recruit and retain the best Marines regardless of race or 
sex. The Marine Corps takes great effort in identifying and recruiting 
the best-qualified Marines for Marine Special Operations Command. To 
that end, all Marine Special Operators volunteer and are recruited from 
within the Marine Corps. All entities from recruiting, career 
counseling, training, and policy development are invested in ensuring 
our Raiders represent the Marine Corps' most qualified applicants as 
well as, increasing the Marines' interest in applying and volunteering 
for these specialized billets.
    Mr. Brown. According to the September 2019 Active Duty Master File, 
only 2.3% of military aviators are black or African American, despite 
blacks and African Americans comprising 20% of all enlisted personnel 
and 8.3% of our officer corps. This trend worsens when we examine 
fighter and bomber career paths, with blacks and African Americans 
comprising only 1.5% of our elite pilots. What is your service doing to 
ensure that our military ranks represent not only the diversity of the 
nation, but also the diversity of our enlisted personnel and officer 
corps?
    General Rocco. The Marine Corps is a standards-based organization 
and seek to recruit and retain the best Marines regardless of race or 
sex. Nevertheless, we are working to be more inclusive--to actively 
seek out underrepresented groups. Our Recruiting Command partners with 
a whole host of organizations to find the best future Marines. All 
Marine Corps aviators come from the commissioned officer ranks. 
Commissioned officers are required to have a bachelor's degree. We find 
opportunities to bring our Marine Corps Leadership Seminar to 
Historically Black Colleges and other universities to increase interest 
in the Marine Corps by underrepresented groups within our Corps. 
Additionally, the Marine Corps actively participates in various 
Outreach and affinity group events specifically focused on aviation and 
Science, Technology, Engineering, and Math throughout the year to 
expand awareness of the opportunities the Marine Corps has to offer. 
Qualified individuals contract with the Marine Corps for the 
opportunity to attend pilot training. Those who successfully complete 
the training become Naval Aviators.

                                  [all]
</pre></body></html>
